<html>
<title> - THE LEGISLATIVE PRESENTATION OF PARALYZED VETERANS OF AMERICA, THE BLINDED VETERANS OF AMERICA, THE NON-COMMISSIONED OFFICERS ASSOCIATION, THE MILITARY ORDER OF THE PURPLE HEART, AND THE JEWISH WAR VETERANS OF THE USA</title>
<body><pre>[Senate Hearing 109-636]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-636

  THE LEGISLATIVE PRESENTATION OF PARALYZED VETERANS OF AMERICA, THE 
BLINDED VETERANS OF AMERICA, THE NON-COMMISSIONED OFFICERS ASSOCIATION, 
THE MILITARY ORDER OF THE PURPLE HEART, AND THE JEWISH WAR VETERANS OF 
                                THE USA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-174 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON VETERANS' AFFAIRS

                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Ranking Member, 
Kay Bailey Hutchison, Texas              Hawaii
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard M. Burr, North Carolina          Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director





















                            C O N T E N T S

                              ----------                              

                             March 9, 2006
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Akaka, Hon. Daniel K., Ranking Member, U.S. Senator from Hawaii..     3
Salazar, Hon. Ken, U.S. Senator from Colorado....................     5
Burr, Hon. Richard M., U.S. Senator from North Carolina..........    51

                               WITNESSES

Pleva, Randy L., Sr., National President, Paralyzed Veterans of 
  America........................................................     7
    Prepared statement...........................................     9
Belote, Larry, National President, Blinded Veterans Association..    13
    Prepared statement...........................................    16
Magidson, David L., National Commander, Jewish War Veterans of 
  the United States of America...................................    28
    Prepared statement...........................................    30
Schneider, Richard C., Executive Officer for Governmental 
  Affairs, Non-Commissioned Officers Association.................    38
    Prepared statement...........................................    40
Randles, James, National Commander, Military Order of the Purple 
  Heart of the U.S.A., Inc.......................................    47
    Prepared statement...........................................    49

                                APPENDIX

Stroup, Theodore G., Vice President, Association of the United 
  States Army, prepared statement................................    55






















 
  THE LEGISLATIVE PRESENTATION OF PARALYZED VETERANS OF AMERICA, THE 
BLINDED VETERANS OF AMERICA, THE NON-COMMISSIONED OFFICERS ASSOCIATION, 
THE MILITARY ORDER OF THE PURPLE HEART, AND THE JEWISH WAR VETERANS OF 
                                THE USA

                              ----------                              


                        THURSDAY, MARCH 9, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-G50, Dirksen Senate Office Building, Hon. Larry E. 
Craig, Chairman of the Committee, presiding.
    Present: Senators Craig, Burr, Akaka, and Salazar.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
               CHAIRMAN, U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs will come to order.
    It is my pleasure to welcome all of you. Your presence here 
today is a strong showing for your commitment and your advocacy 
to America's veterans. I am pleased that many of you have 
traveled great distances to carry on this tradition. I 
understand that several people who are here today have made 
that trip from my home State of Idaho, and I am going to offer 
them a very special welcome. Any Idahoans in the crowd?
    Maybe that trip was just a little too long.
    [Laughter.]
    This past year has been an extremely gratifying one for me. 
My first as Chairman of the Veterans' Affairs Committee. I 
sincerely believe that this Committee and its Members, while 
sometimes differing in approaches, are all united in one common 
mission: ensuring that our Nation's veterans, particularly 
veterans wounded in the line of duty, receive the highest 
quality of health care and benefits that they need.
    By any measure, we have had a busy and a productive first 
session, convening 21 hearings here in Washington, 9 field 
hearings, 4 mark-ups. More importantly, Committee-related 
activities have led to several important accomplishments.
    About a year ago, I walked into my office to meet three 
marvelous young veterans of Operation Iraqi Freedom. One was 
missing a leg, another was missing both legs, and the third 
could no longer see. They brought me a legislative proposal to 
create a new insurance benefit for those who had suffered 
traumatic injuries such as theirs; mind you, a proposal not for 
them, but for their friends, for their comrades. I was 
impressed with their selflessness.
    With Senator Akaka on board, I immediately took to the 
floor of the Senate with their proposal. With VSO support, many 
of you in this room supported us, it was signed into law a few 
weeks later, and there is a result there we can now measure and 
be proud of. As of last week, VA has paid almost 1,500 
traumatically injured servicemembers from OIF and OEF.
    [Applause.]
    Thank you. These are young men and women with amputations, 
severe burns, total blindness, total deafness, paralysis, and a 
host of other disabilities, all of them sustained in defense of 
all of us. Going forward, wounded warrior insurance will fill a 
gap in financial help faced by these heroes and their families 
during convalescence.
    Before I close, let me touch on what has consumed much of 
our attention of late, and that of course is something you are 
here to talk about today, the 2007 VA budget. I believe this 
record budget request is extraordinary, and shows that in this 
fiscal austere time the President has chosen to make veterans 
once again a top priority.
    In fact, I just came from an early morning hearing on the 
Department of Agriculture's budget. That budget was cut by over 
$4 billion in real dollars from last year, and that is true of 
many budgets across our country and across our government.
    I just came down from a hearing that is going on just above 
us, with Secretary Rice and Secretary Rumsfeld asking for a 
substantial supplemental to make sure that our men and women in 
uniform who are standing in harm's way at this moment are 
appropriately served.
    The VA budget, by its current track, will double nearly 
every 6 years, and will soon collide with spending demands in 
all other areas of government. Although we may wish that VA 
funding existed in a vacuum, we all know it doesn't. Many of 
you have been here year after year, fighting for those you 
believe in and fighting for America's veterans, and this 
Committee will not take second place in that similar fight.
    As I am sure everyone is aware, the President proposed one 
way for us to help in this fiscal austere time by asking 
priorities sevens and eights, with no service-related 
disabilities, to contribute about $21 per month to enroll in 
the VA health care system and to pay about $15 for a 30-day 
supply of medicine. Although I personally find this proposal 
reasonable, I know that many of you have voiced opposition; 
certainly many on this Committee have.
    So I must reiterate my hope that your organizations and 
others will engage this Committee in a serious and candid 
discussion, if not about the President's proposals, then about 
other options. It is our collective responsibility to sustain 
this unparalleled VA health care system into the future. If we 
begin addressing these issues now, we can help assure that 
future veterans will not be faced with even bigger challenges 
and more radical changes to meet those challenges.
    Personally, I do not want to pass this issue on to the next 
guy or the next chairman. I want to pass on to tomorrow's 
veterans what we can collectively create for the future, 
because we know what we have done together is good. We have, by 
our investment and your advocacy--and I say ``ours,'' the 
American taxpayers' investment--we have created one of the 
number one health care delivery systems in the world for 
America's veterans.
    I hope you agree with my goals. I think they are shared by 
everyone. I think the next few years will be ones of progress 
and wisdom in handling veterans' issues. I look forward to 
hearing your testimony and a continued dialogue with you, your 
organizations, about the many important issues concerning 
veterans today.
    Certainly in the spirit of that I once again extend a warm 
welcome to all of you for joining us today. And before I 
introduce our panel of the morning, let me turn to my colleague 
and Ranking Member on the Committee for any opening remarks he 
would like to make, Senator Danny Akaka.
    Senator Akaka.

STATEMENT OF HON. DANIEL K. AKAKA, RANKING MEMBER, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman. It is certainly a 
pleasure to be with all of you today, and I want to add my 
welcome along with yours, Mr. Chairman, to all of you who have 
come this morning.
    I want to thank the organizations here today, as well as 
all the veterans and their families who have made the journey 
to the Nation's Capital to express their concerns. This is, 
without question, truly democracy in action. Your organizations 
have a proud tradition of public service. This Committee relies 
heavily on your concerns and your agendas for the coming year.
    I want to welcome Dr. Roy Kekahuna from the Blinded 
Veterans Association, who is from Hawaii. If you are here, will 
you raise your hand, Roy? Oh, there you go. Thank you so much 
for being here.
    [Applause.]
    I remember last month, Roy, that you testified before this 
Committee during the field hearings in our home State of 
Hawaii. After reviewing your testimony, I share many of your 
concerns and priorities.
    During this time last year, many of us here in Congress 
were sounding the alarm that the VA budget was facing a crisis 
situation, and many months later the Administration 
acknowledged this fact, and Congress took action to provide 
emergency funding. I want to say that Chairman Craig kept his 
promise and was a driving force behind the emergency funding. I 
applaud him for his efforts.
    When we started working together last year, we pledged to 
work in a bipartisan manner, and without question we have done 
so. There are times, however, when we agree to disagree. We 
both agree that veterans deserve to have the best health care 
services and benefits, though sometimes disagree on how we pay 
for it.
    I want to be clear, however, that we have the same goal, 
and that is to ensure that VA is provided with the resources to 
provide quality care and service to our Nation's veterans. I 
remain dedicated to ensuring that VA has the resources and 
needs to care for our veterans. We must learn a lesson from 
last year's budget crisis and do everything we can to ensure 
that veterans and their families have access to the health care 
and benefits they have earned.
    VA's budget has increased over the past 6 years, as it 
should. The cost of caring for our veterans is, in my opinion, 
a cost of war. If the Department of Defense's budget can grow 
as it has and be funded yearly out of supplementals, it only 
makes sense that VA's budget needs to grow equally as well. It 
is no secret that each servicemember that is funded out of DOD 
will eventually be seeking services from VA. It follows, then, 
that if DOD's budget grows steadily, VA's budget must grow 
steadily as well.
    For me it is a matter of priorities. We must stand by our 
veterans and ensure that they receive the care and services 
that they have earned through their service to our country, and 
we must ensure that we care for all veterans. We cannot fund 
the VA system out of the pockets of the middle-income veterans, 
as many of these men and women make only as little as $26,902 a 
year. Higher co-payments and enrollment fees I feel are not 
justified.
    To date, over a quarter of a million veterans have been 
excluded from VA health care. Over 700 veterans in Hawaii have 
knocked on the doors of VA, asking for care, only to be denied. 
We must work to overturn this Administration's decision and 
open the VA system up to those who need it.
    I also am concerned about the VA research program being 
slated for a cut under this budget. Since its inception, the VA 
research program has made landmark contributions to the welfare 
of not only veterans but the entire Nation, illustrating the 
unique importance of keeping it adequately funded. With 
thousands of military personnel engaged in conflict overseas, 
it is vital that Congress invest in research that could have a 
direct impact on their post-deployment quality of life.
    With regard to the VBA budget, I am concerned whether or 
not this budget provides an adequate level of staffing for 
compensation claims rating. VA must be ready to adjudicate 
claims in a timely and accurate manner. Our veterans and their 
families deserve nothing less.
    [Applause.]
    I will continue to oppose efforts to reduce veterans' 
compensation as we say with the ill-fated PTSC review. Now the 
Institute of Medicine and the Veterans' Disability Benefits 
Commission are reviewing veterans' disability compensation. It 
is my hope that these groups will recommend new ways for 
Congress to improve benefits, and not call for cuts in current 
benefits.
    My next priority is near and dear to my heart. As a veteran 
of World War II, I owe a great deal of where I am today to the 
GI Bill educational benefits I used as a young man. I should 
tell you in those days I received $113 a month, and it was good 
enough to take care of my needs and pay for all of my tuition. 
With this in mind, I will continue to look for ways to enhance 
and modernize educational benefits to more adequately prepare 
veterans for the new challenges of our economy.
    In closing, I would like to once again thank all of you for 
being here today. Your service and your dedication to this 
Nation and its veterans are unquestionable. I look forward to 
your presentation and working with you in the future.
    Thank you very much, Mr. Chairman.
    [Applause.]
    Chairman Craig. Danny, thank you very much.
    Now let's turn to Senator Ken Salazar of Colorado for any 
opening statement Ken may have.

   STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you, Chairman Craig and Ranking 
Member Akaka. I appreciate the fact that you hold these 
hearings, and I also appreciate the leadership that you provide 
in this U.S. Senate and this Committee. I think the kinds of 
hearings that we have, including the one here today, 
demonstrate the kind of leadership that we have from both you, 
Mr. Chairman, as well as Senator Akaka, our Ranking Member.
    I want to thank the members of the Paralyzed Veterans of 
America, the Blinded Veterans of America, the Non-Commissioned 
Officers Association, the Military Order of the Purple Heart, 
and the Jewish War Veterans of the USA, for coming to our 
Nation's capital today to talk about these critical issues. You 
are the reason we are here today, and you are the reason we 
work hard every day to ensure our veterans receive the best 
services our government can provide.
    I want to also point out that in the audience today, from 
the Mountain States Chapter of the PVA, we have Jared Musik and 
Mark Shepherd, Sr., if they can show where they are. Join me in 
giving them a----
    As we discuss the President's fiscal year 2007 budget 
proposal for the VA, there are a number of important issues 
which we need to examine in Congress. First and foremost, we 
need to do everything we can to ensure that funding for 
veterans' health care and services is there, not only for this 
year but for every year into the future. That is why last 
year's $1.2 billion shortfall for VA health care was so 
troubling, and it was a very good thing that Senator Craig, 
Senator Murray, Senator Akaka, and the rest of this Committee 
worked to restore the funding that was needed.
    It is also why several of my colleagues and I have asked 
the Government Accountability Office to examine the process by 
which VA determines its budget requests every year. It still 
puzzles me as to why we ended up with the kind of shortfall 
that we ended up with last year. We are awaiting the final 
findings of that inquiry, and we will work to do everything we 
can to see that the problems are identified and addressed.
    We see the symptoms of those problems in other efforts to 
generate revenue and to decrease costs by establishing 
enrollment fees and doubling prescription drug co-payments for 
Priority Seven and Eight veterans. While I certainly understand 
the need to focus our service on those veterans who need it 
most, I firmly believe that the promise we made to our Nation's 
veterans obligates us to do everything we can to ensure that 
all veterans receive the services that they have earned.
    [Applause.]
    For that reason, I oppose the President's proposal, and 
will work with my colleagues to see whether we can readdress 
them and turn them back.
    More troubling, however, is the recent revelation that the 
budget projects dramatic cuts in VA funding in the out-years. 
For sure, as Senator Craig said earlier, we have a proposed 
budget for next year which appears to give us about a 9 percent 
increase, but when you look out at the out-years, there are 
concerns that we should all be focused on.
    Recent documents that have been shown from the 
Administration, from the White House, seem to assume that 
funding for VA health care would increase by 9 to 11 percent 
for fiscal year 2008, and then after that there would be cuts 
for the next 3 years in a row. We need to make sure that we 
have a sustained and long-term commitment for the funding for 
VA health care, which is the kind of sustained commitment that 
I hear both Senator Craig and the Members of this Committee 
talking about.
    The answer, in my view, to dealing with some of these 
issues concerning the budget is to take it out of the whimsical 
annual atmosphere of Washington, D.C. and our budgeting 
process, and to make mandatory funding for VA health care.
    [Applause.]
    I am a cosponsor of legislation that would make that goal a 
reality, and I will work to see that it becomes law.
    Finally, I want to talk about an issue that is near and 
dear to my heart and to the State of Colorado, and to all of us 
from places like Idaho and South Dakota and other places that 
are rural in nature, where you have to travel sometimes 
hundreds of miles to receive health care. Too often our Nation 
has focused, I believe, on policies in urban areas, that we 
sometimes forget the serious obstacles that exist for rural 
veterans seeking to obtain services they need and deserve.
    Many veterans in my State of Colorado, both the northwest 
and the northeast, have to travel several hundred miles in 
order to get their medical care. Sometimes the round trip is 
500 miles. This is not a choice that we ought to require any 
veteran to ever have to make. We need policies that recognize 
and address these challenges now, and I look forward to working 
to address the needs of veterans in rural America in this 
Congress.
    Finally, Mr. Chairman and Senator Akaka, and to all of you 
who are assembled here, I sit here in my seat today as a U.S. 
Senator because so many members of my family have given both 
their life and their service to this country over many wars, 
and I don't take the freedom that we have here in America at 
all for granted, nor does this Committee. And I think that is 
why this Committee does the great work that it does, in a 
bipartisan way, to try to address the real needs of our 
veterans.
    We have an additional challenge that we have to confront 
now because we face the reality of so many returning veterans 
from Iraq and Afghanistan. This Committee will do its best, I 
am certain, to make sure that those needs are addressed.
    Thank you very much, Mr. Chairman.
    [Applause.]
    Chairman Craig. Ken, thank you very much. And to our 
panelists, thank you for your patience. We do appreciate you 
being here, and let me introduce our panelists and ask them to 
begin.
    Randy Pleva is the National President for the Paralyzed 
Veterans of America. Welcome, Randy.
    Mr. Pleva. Thank you, sir.
    Chairman Craig. Larry Belote, who serves as the National 
President of the Blinded Veterans Association.
    David Magidson, welcome.
    Mr. Magidson. Thank you, sir.
    Chairman Craig. We didn't think you were going to make it.
    Mr. Magidson. No, I was here. I was sitting over there. I 
didn't know I was to sit up here, but I do now.
    Chairman Craig. Well, we are glad you are here, the 
National Commander for the Jewish War Veterans.
    And representing the Military Order of the Purple Heart is 
its National Commander, James Randles. Thank you very much for 
being here.
    And, let's see, we have had a change. Richard Schneider, 
who is with us today, who is President and Chief Executive 
Officer for the Non-Commissioned Officers Association. Richard, 
thank you very much for being here.
    Randy, we will start with you. Please proceed.

STATEMENT OF RANDY L. PLEVA, SR., NATIONAL PRESIDENT, PARALYZED 
                      VETERANS OF AMERICA

    Mr. Pleva. Thank you, sir. Mr. Chairman and Members of the 
Committee, as you well know, I am Randy Pleva, the National 
President of Paralyzed Veterans of America, and behind me are 
PVA's elected leaders of our chapters, legislation and advocacy 
directors. They represent all of our members in all 50 States 
and Puerto Rico.
    Chairman Craig and Ranking Minority Member Akaka, you kind 
of took the wind out my sails here with all the support that 
you have shown through the years. Believe me, sir, I am so 
thankful that you gave us this time for us to talk to this 
Committee. The reason I say that is because I know of the 
support that you have given veterans. But, sir, there are still 
people out there that don't share what you share, sir.
    For over 50 years the veterans' service organizations have 
been coming and testifying in front of Congress, voicing their 
concerns, voicing needing money for veterans, and a lot of 
times, sir, it has fallen on deaf ears. It really has.
    And today some people that feel like veterans have too much 
already, I would like for them to take a look in this room, 
because I tell you the price of freedom has a very heavy price. 
It really does. Just look at the wheelchairs, and people that 
live on a daily basis with the scars and the horrors of war 
that they carry on.
    Also for the last 50 years, like I said, the veterans have 
come to the table to ask, and sometimes, Mr. Chairman, they 
have received crumbs off that table, the table of plenty. They 
really have. Veterans have protected that table, and to this 
day, with the--well, for example, the increase of co-payments 
and enrollment fees, PVA strongly opposes these proposals and 
we ask Congress to reject these items.
    Also, sir, we are very appreciative that the nonservice-
connected veterans with a catastrophic disability are already 
included in Category Four, but you know what? They still pay 
the co-payments. And they have to pay for the meds, and they 
have to pay for their in-patient and their out-patient care. 
That sometimes is just overwhelming and very costly. Again, Mr. 
Chairman, to me, I don't think that's a priority at all, I 
really don't.
    Another concern, I know that Senator Akaka mentioned it, 
was on research. You know, one of these days we would kind of 
like to see wheelchairs be a thing of the past, but as long as 
they keep cutting the funds for research, that will never 
happen. It won't. It will just never happen.
    Another concern that we have, sir, is with the SCI, the 
spinal cord injury physicians and nurses that we have in our VA 
hospitals. The VA has to come up with something, with 
substantial incentives and bonuses to keep these people.
    When I was in Texas, I visited the hospital and talked with 
a young lady who has been a quadriplegic, high level 
quadriplegic, for 20 years. Came in for a 10-minute procedure, 
10 minutes, and that lady had been in there for 90 days because 
over a 10-minute period no one knew how to handle her and her 
skin broke down. That is just unacceptable, sir. It really is. 
Ninety days that she was away from her family, when she thought 
she would be home within a half-hour of that procedure.
    These are concerns that we have, sir. These are things that 
really concern our members and our organization.
    Also, we have a lot of World War II veterans that have been 
pushing these chairs for 60 years, and who desperately need 
long-term care. And we would really ask that any legislation--
reject anything, sir, that would reduce long-term care. Of 
course, we are not getting any younger ourselves. And as far as 
staffing, the beds, things of this nature, we just hope that 
people would reconsider.
    And also, sir, we have another concern, and that is the VA 
contract health care out there, the providers. Just with the 
trouble I was telling you about, that we have trouble with our 
spinal cord doctors and nurses and the VA may take us out to 
someone that wouldn't be qualified to take care of us.
    Mr. Chairman, I know we only have 5 minutes, sir, and I 
don't mean to cry wolf or anything of that nature. But, Mr. 
Chairman, I have a very serious concern, after talking to some 
of the people on the Hill, not like yourself, but you know a 
lot of these people--and I know you have heard this before--but 
they gave their all. I am sorry. They gave their all and, you 
know, Senator, it is like some people look you in the face and 
they are not afraid to tell you, ``So what? So what? Who 
cares?'' And that really disturbs me because, sir, I am not a 
smart man. I am no college graduate, but I know right is right 
and wrong is wrong.
    And these people that are sevens and eights, you know what? 
They left their families, they left their jobs. They put their 
life on the line.
    And I am telling you, sir, that is not--again, it is not--I 
hear gray areas. It is black and white, just that simple. And, 
Senator, again, I have these concerns. I see my time is up, but 
I appreciate you listening to us. Thank you ever so much, sir, 
for having this hearing. Thank you.
    [The prepared statement of Mr. Pleva follows:]
    Prepared Statement of Randy L. Pleva, Sr., National President, 
                     Paralyzed Veterans of America
    Mr. Chairman and Members of the committee, Paralyzed Veterans of 
America (PVA) appreciates this opportunity to present our legislative 
priorities for 2006 and this session of the Congress. PVA would like to 
thank you Chairman Craig and Ranking Member Akaka for allowing us to 
continue to present our testimony with PVA leadership and members in 
attendance. It is a great way for us to participate in the legislative 
process.
    I would also like to thank you both for recognizing the 
accomplishments of The Independent Budget over the last 20 years by 
attending our anniversary reception recently.
    PVA's budget recommendations are part of the joint policy 
statements contained in this year's Independent Budget. They are the 
combined recommendations of AMVETS, Disabled American Veterans, PVA and 
Veterans of Foreign Wars. This year, PVA and our fellow VSOs are proud 
to mark the 20th Anniversary of this joint effort presenting budget and 
policy direction to the Congress and the Administration for all 
benefits and services provided to the veterans of this Nation.
                 fiscal year 2007 va health care budget
    With regard to the Administration's budget proposal, PVA is pleased 
to see that for the first time, a reasonable starting point was offered 
by the President to fund the VA health care system. For fiscal year 
2007, the Administration has requested $31.5 billion for veterans' 
health care, a $2.8 billion increase over the fiscal year 2006 
appropriation. Although this is a significant step forward, we still 
have some concerns about proposals contained within the request, as I 
will later explain. The Independent Budget for fiscal year 2007 
recommends approximately $32.4 billion for veterans' health care, an 
increase of $3.7 billion over the fiscal year 2006 appropriation and 
about $900 million over the Administration's request.
    We believe that the recommendations of The Independent Budget have 
been validated once again this year as the Administration indicated 
that it will actually take $25.5 billion to fund Medical Services, an 
amount very close to what we recommend. However, they only request 
$24.7 billion in appropriated dollars. The Administration hopes to 
raise an additional $800 million by instituting the new enrollment fee 
and the increase in prescription drug co-payments to achieve the 
necessary funding level.
    I would like to single out this particular budget and policy 
recommendation that continues to receive a great deal of attention, 
both in the veterans' community and in the Congress. As it has for the 
past 3 years, the Administration is insisting on more than doubling 
fees for prescription co-payments and instituting an annual $250 
enrollment fee for certain veterans in the lower eligibility 
categories.
    I would like to take a moment to explain why PVA objects to the 
proposal. I would also like to explain why we believe this 
recommendation, if approved, will have a serious impact on many 
veterans with catastrophic disabilities whose only main health care 
resource is the VA health care system.
    VA has cared for veterans with nonservice-connected disabilities 
for a long time. This is not a new phenomenon authorized by eligibility 
reform in 1996. Veterans health facilities admitted nonservice-
connected veterans in large numbers following World War I. The Congress 
and the VA admitted the nonservice-connected, not just the poor and 
indigent, in large numbers as the VA health care system grew in size 
and scope through the middle of the 20th Century and beyond. VA used 
the rationale that its facilities were there to serve veterans who, 
because of nonavailability of comparable services, access, or cost, 
found VA a reasonable or unique resource for health care services they 
could not find elsewhere.
    VA opened its doors to these veterans for many reasons, the main 
one being these men and women had served their country just as 
honorably as anyone else who had worn the uniform. They deserved no 
less.
    Prior to 1986, all veterans, service-connected and nonservice-
connected, over the age of 65 were eligible for VA health care. In 
1986, Congress approved legislation which divided the veteran 
population into three eligibility categories. In 1996, Congress again 
revised that legislation with a system of seven priority ratings for 
enrollment. Within that context, PVA worked hard to ensure that those 
veterans with catastrophic disabilities, no matter if those 
disabilities were service-connected or nonservice-connected would have 
a higher enrollment category. If the three implied missions of the VA 
health care system were to provide for the service disabled, the 
indigent and those with special needs, the catastrophically disabled 
certainly fit in the latter priority Ranking. The VA had an obligation 
to provide care for these veterans. The specialized services, such as 
spinal cord injury care, unique to VA, should be there to serve them.
    To protect their enrollment status, veterans with catastrophic 
disabilities were allowed to enroll in Category Four even though their 
disabilities were nonservice-connected and regardless of their incomes. 
However, unlike other Category Four veterans, if they would otherwise 
have been in Category Seven or Eight, they would still be required to 
pay all fees and co-payments, just as others in those categories do now 
for every service they receive from VA.
    PVA believes this is unjust. VA recognizes their unique specialized 
status on one hand by providing specialized service for them in 
accordance with its mission to provide for special needs. The system 
then makes them pay for those services.
    These veterans are not casual users of VA health care services. 
Because of the nature of their disabilities they require a lot of care 
and a lifetime of services. Private insurers and providers do not offer 
the kind of sustaining care for spinal cord injury found at VA even if 
the veteran is employed and has access to those services. Other Federal 
or state health programs fall far short of VA. In most instances, VA is 
the only and the best resource for a veteran with a spinal cord injury 
and yet, these veterans, supposedly placed in a priority enrollment 
category, have to pay fees and co-payments for every service they 
receive as though they had no priority at all.
    The Administration's new fees and new enrollment payments add even 
higher burdens to penalize these veterans for seeking the only source 
of the health care they need.
    We strongly urge the committee to correct this financial penalty. 
If a veteran is in Category Four because of a catastrophic disability, 
then treat that veteran like all other Category Fours and exempt him or 
her from fees and co-payments.
    Our health care recommendation does not include additional money to 
provide for the health care needs of Category 8 veterans being denied 
enrollment into the system. However, it is included in our bottom line 
for total discretionary dollars needed by the VA to provide health care 
to all eligible veterans. Despite our clear desire to have the VA 
health care system open to these veterans, Congress and the 
Administration have shown little desire to overturn this policy 
decision. The VA estimates that a total of over 1,000,000 Category 8 
veterans will have been denied enrollment into the VA health care 
system by fiscal year 2007. Assuming a utilization rate of 20 percent, 
we believe that it would take approximately $684 million to meet the 
health care needs of these veterans, if the system were reopened. We 
believe that the system should be reopened to these veterans and this 
money appropriated on top of our medical care recommendation for this 
purpose.
    Despite a reasonable request this year, the budget and 
appropriations process over the last number of years demonstrates 
conclusively how the VA labors under the uncertainty of how much money 
it is going to get and when it is going to get it. In order to address 
this problem, PVA, in accordance with the recommendation of The 
Independent Budget, proposes that funding for veterans' health care be 
removed from the discretionary budget process and be made mandatory.
            medical, prosthetic, and rehabilitation research
    For Medical and Prosthetic Research, the Administration has 
recommended $399 million, a cut of approximately $13 million below the 
fiscal year 2006 appropriation. The Independent Budget recommends $460 
million. Research is a vital part of veterans' health care, and an 
essential mission for our national health care system. VA research has 
been grossly underfunded in comparison to the growth rate of other 
Federal research initiatives. We call on Congress to finally correct 
this oversight.
    We also believe that additional funding needs to be provided for 
rehabilitation research. The development of new and better techniques 
allows catastrophically disabled veterans to become more active and 
independent in society. Furthermore, advanced rehabilitation can only 
lead to a happier and healthier life for these men and women.
    One particular program that is currently taking place that we 
believe will be highly successful is the Spinal Cord Injury--Vocational 
Rehabilitation Program (SCI-VIP). This is a new 5-year research project 
that will attempt to greatly improve the employment rate of veterans 
with spinal cord injury. It will be conducted at four spinal cord 
injury/dysfunction (SCI/D) centers--Dallas, Milwaukee, San Diego and 
Cleveland--with control groups at the Houston SCI center and at the 
Hines SCI center in Chicago. In short, the project will inject 
vocational rehabilitation counselors (VRC) directly into the medical 
rehabilitation process to provide ``hands-on'' vocational assistance 
throughout rehabilitation. The VRCs will make employment a priority 
component of the rehabilitation process.
    PVA has strongly supported this concept since it was first proposed 
by Dr. Lisa Ottomanelli at the Dallas SCI Center. We hope that the VA 
will see fit to expand this program to benefit spinal cord injured 
veterans across the country. We would also urge the Congress to make 
available additional funds within the research program to support this 
project.
                      physician and nurse shortage
    PVA is concerned that the VA continues to experience a serious 
shortage of qualified, board certified spinal cord injury (SCI) 
physicians, making it difficult to fill the role of chief of an SCI/D 
service. Several major SCI/D programs are under acting management with 
resultant delays in policy development and a loss of continuity of 
care. In some VA hospitals the recruitment for a new chief of service 
has been inordinately prolonged with acting chiefs assigned for 
indefinite time periods.
    We are even more concerned about the continuing shortage of nurses, 
particularly in spinal cord injury units. PVA believes that the basic 
salary for nurses who provide bedside care to SCI veterans is too low 
to be competitive with community hospitals. This leads to high 
attrition rates as these nurses seek better pay in the community.
    Recruitment and retention bonuses have been effective at several 
SCI centers, resulting in an improvement in the quality of care for 
veterans as well as the overall morale of the nursing staff. 
Unfortunately, these are localized efforts by the individual VA medical 
facilities. We believe that the Veterans Health Administration (VHA) 
should authorize substantial recruitment incentives and bonuses.
    PVA calls on Congress to conduct more oversight of the VHA in 
meeting its nurse staffing requirements for SCI units as outlined in 
VHA Directive 2005-001. Currently nurse staffing numbers do not reflect 
an accurate picture of bedside nursing care provided because 
administrative nurses, non-bedside specialty nurses, and light-duty 
staff are counted as part of the total number of nurses providing 
bedside care. Furthermore, not all SCI centers are in full compliance 
with the regulation for the staffing ratio of professional nurses to 
other nursing personnel. With proper congressional oversight, these 
mistakes can be corrected.
                   long-term care and assisted living
    PVA is concerned with recent trends to reduce the ability of the VA 
to provide long-term care to a rapidly aging veterans population. We 
strongly oppose any proposal that would repeal the statute that 
requires the VA maintain bed and staffing levels at the same level 
established by P.L. 106-117, the ``Veterans Millennium Health Care and 
Benefits Act.'' Despite an aging veteran population and passage of P.L. 
106-117, the VA has continuously failed to maintain its 1998 VA nursing 
home required average daily census (ADC) mandate of 13,391. VA's 
average daily census (ADC) for VA nursing homes has continued to 
decline since 1998 and is projected to decrease to a new low of 9,795 
in fiscal year 2006. The VA is ignoring the law by serving fewer and 
fewer veterans in its nursing home care program.
    PVA was deeply troubled by efforts in Congress last year to 
eliminate the mandatory ADC requirement contained in the Millennium 
Health Care bill. This proposed change is not driven by current or 
future veteran nursing home care demand. In fact, the General 
Accounting Office (GAO) reported ``the numbers of aging veterans is 
increasing rapidly, and those who are 85 years old and older, who have 
increased need for nursing home care, are expected to increase from 
approximately 870,000 to 1.3 million over the next decade.''
    PVA strongly feels that the repeal of the capacity mandate will 
adversely affect veterans and is a step toward allowing VA to reduce 
its current nursing home capacity. This is not the time for reducing VA 
nursing home capacity with increased veteran demand looming on the near 
horizon. We hope that this Committee will reject any such legislation. 
Furthermore, we urge the Committee to conduct aggressive oversight to 
ensure that the VA is fulfilling its statutory obligation to provide 
long-term care.
    We believe that assisted living can be a viable alternative to 
nursing home care for many of America's aging veterans who require 
assistance with the activities of daily living (ADL) or the 
instrumental activities of daily living (IADL). Assisted living offers 
a combination of individualized services, which may include meals, 
personal assistance, and recreation provided in a home-like setting. 
Congress should consider providing an assisted living benefit to 
veterans as an alternative to nursing home care. Likewise, Congress 
should authorize the VA to expand its Assisted Living Pilot Program 
(ALPP) to include an initiative in each VA Veterans Integrated Service 
Network (VISN). This expanded effort will allow VA to gather important 
regional program cost and quality information.
    Congress should call upon VA to conduct a cost and quality 
comparison study that compares the ALPP experience to cost and quality 
information it has compiled for VA nursing home care, community 
contract nursing home care, and state veterans nursing home care. When 
completed, this long-term care program cost comparison study should be 
made available to Congress and veterans service organizations.
      multiple sclerosis (ms) and parkinsons centers of excellence
    The VA appropriations subcommittees in the House and Senate 
inserted language in their VA funding reports for fiscal year 2001 
requiring VA to establish centers of excellence to conduct research and 
study in the field of neurodegenerative diseases. With that 
instruction, VA identified two fields of inquiry for the centers with 
particular bearing on medical conditions prevalent in the veteran 
population, Parkinsons Disease and Multiple Sclerosis. The VA, 
subsequently, on two different tracks, proceeded to establish the 
centers of excellence starting first with the Parkinsons Centers and 
later with the two MS Centers.
    PVA has expressed concern that the centers, established only 
through VA good faith and resources available in any one budget cycle 
could eventually be in jeopardy. Therefore, last year an effort was 
launched to take what was only an authorization or recommendation for 
the centers and actually codify them. The House of Representatives 
approved H.R. 1220 which addressed the codification of the Parkinsons 
centers. Senator Daniel Akaka introduced S. 1537 which would codify 
both Parkinsons and MS Centers.
    When both the House and Senate Appropriations Subcommittees 
directed VA to establish these centers they made no distinction between 
them. The report language in both Appropriations bills only directed VA 
to establish centers of excellence in neurodegenerative diseases to 
spur the Department along in research and treatment in this overall 
field of medicine. While studying uniquely different diseases, both 
Parkinsons and MS Centers serve together in the overall study of 
neuroscience. It would be inappropriate in our view to put the centers 
on separate tracks, codifying one and not the other.
    We urge the committee to adopt legislation which can address and 
codify these centers in Title 38 U.S.C. once and for all.
                       contract care coordination
    I would like to address a trend that we believe could have a 
substantial negative impact on the VA health care system. We have 
serious concerns about the contract care coordination pilot program 
authorized in P.L. 109-114, the ``Military Construction, Military 
Quality of Life and Veterans Affairs Appropriations Act of 2006.'' The 
conference report accompanying this law requires the VA to establish a 
comprehensive managed care demonstration project in at least three 
Veterans Integrated Service Networks (VISNs). We oppose the VA's 
planned approach to this new requirement to establish additional, 
parallel contract programs on a broad scale.
    VA's approach to this requirement seeks to contract health care 
services provided by non-VA providers on a broad basis. This only 
serves to dilute the quality and quantity of VA services for new as 
well as existing veteran patients. Ultimately, contract care is not 
more cost-effective or cost-efficient than care provided by the VA, and 
we certainly do not believe that the VA will find the same level of 
high-quality care in the private sector. There is no reason for VA to 
move into this arena on a broad basis.
    The Secretary of Veterans Affairs, Jim Nicholson, recently 
testified to the remarkable success of the VA health care system and 
the positive media that it has recently received as a result of this 
success. He explained that it is a model for the rest of the country 
and private industry. In fact, Secretary Nicholson stated before the 
House Committee on Veterans' Affairs at a hearing on February 8, 2006 
that ``for the sixth consecutive year, VA set the public and private 
sector benchmark for health care satisfaction based on the American 
Customer Satisfaction Index survey.'' This is true because the VA 
health care system operates as a fully integrated, government managed 
health care system.
                        benefits recommendations
    PVA would like to offer a few improvements to benefits provided by 
the VA. PVA members are the number one beneficiary of the Special 
Adaptive Housing (SAH) grant and the adaptive automobile grant. 
Unfortunately, periodic increases in these grants have not kept pace 
with inflation. For both the SAH grant and the adaptive automobile 
grant, we believe that an automatic annual adjustment indexed to the 
rising cost-of-living should be applied. Furthermore, in accordance 
with the recommendation of The Independent Budget, the adaptive 
automobile grant should be increased to 80 percent of the average cost 
of a new vehicle to meet the original intent of Congress.
    PVA would also like to recommend a change in the compensation 
provisions outlined in Title 38, Section 5111. Under current law, the 
effective date for a veteran's finding of service connection is the day 
after his or her date of military discharge. However, the effective 
date for his or her VA compensation payments is the first day of the 
month following the month when that service connection was granted. 
Because the veteran's compensation payment for a given month is not 
made until the end of the month, he or she could lose up to an entire 
months worth of pay under this current provision.
    As an example, if SGT John Smith is medically retired on 01/31/06 
from the Army for a C4 spinal cord injury from a sniper bullet, then 
his effective date for benefits is 02/01/06. However, his effective 
date for compensation payment is 03/01/06, and he would not receive his 
first payment until 03/31/06. Current law does not allow him to be 
compensated for the month of February in this case. We believe the law 
should be changed to make the veteran's effective date of service 
connection and effective date for compensation payment the same.
    PVA appreciates the opportunity to present our legislative 
priorities and concerns for the second session of the 109th Congress. 
We look forward to working with the Committee to ensure that adequate 
resources are provided to the VA health care system so that eligible 
veterans can receive the care that they have earned and deserve. We 
also hope that this Committee will take the opportunity to make 
meaningful improvements to the benefits that veterans rely on.
    Mr. Chairman, I would like to thank you again for the opportunity 
to testify. I would be happy to answer any questions that you might 
have.

    Chairman Craig. Randy, thank you.
    Larry, please proceed.

STATEMENT OF LARRY BELOTE, NATIONAL PRESIDENT, BLINDED VETERANS 
                          ASSOCIATION

    Mr. Belote. Yes, sir. On behalf of the Blinded Veterans 
Association, I want to thank you for allowing us this 
opportunity to testify today. Am I supposed to ask, can we have 
our testimony entered into the record, the written testimony?
    Chairman Craig. Without objection, all statements and any 
accompanying material will be a part of the official record. 
Thank you.
    Mr. Belote. Thank you, sir. The Blinded Veterans 
Association has a long history, and is the only congressionally 
chartered organization specifically set up to serve blinded 
veterans and their families. This month is when we are going to 
celebrate our 61st year of continuous service in doing that.
    I think what that has resulted in is, we have a unique 
insight into the needs and services that we require from the 
Department of Veterans Affairs. There are three things about 
us, I think, that cause that.
    Number one, we are providers of the services. We see what 
the people need on a daily basis. We are working now with the 
OIF/OEF veterans, Ryan Wolfer Hall, and we are working with 
them in the BAMC, at Brooks Army Medical Center in San Antonio, 
for example. We are on conference calls with them and their 
families to give them support.
    The people on our board are actively involved in the local 
community, State level. And we are staying involved, trying to 
share the learning experiences that we had overcoming sight 
loss, so it makes the road a little easier for these fellows 
and ladies when they come back to get back on their feet and 
restore their functioning and become active members of society.
    We are also consumers. Obviously we use the benefits and 
goods of the VA to get back on our feet. Many of us have used 
the educational benefits, the rehab services, to become 
lawyers, physician's assistants, ministers. The people on our 
board all have achieved great heights because of the VA and the 
services we were provided to get us back on our feet, and we 
want to make sure that happens to the veterans following us.
    The last thing that we are, and this is very important, we 
are also taxpayers. We are taxpayers, and we want to make sure 
it is not always how much we get, it is how much we spend and 
how we spend it. We want to ensure, as taxpayers, that the VA 
spends the money they get in the best way possible to meet our 
needs, and not spending it on something else that doesn't meet 
our needs but trying to sell it that way.
    I want to now move into our legislative thing, and we want 
to only focus on three issues today. We provided our written 
testimony, which is quite, quite in depth.
    The first one, I want to thank the Chairman and the 
Committee, and especially Senator Salazar, for helping us get 
our BROS, our Blind Rehab Outpatient Specialist legislation 
through the Senate, and it is now over at the House. This is an 
important part of our saving money, because we believe that 
having outpatient services, an outpatient model of service 
delivery goes a long way toward saving money over brick-and-
mortar facilities which have been the historical way of 
providing services.
    The second thing I want to bring up, and this directly 
relates to OIF/OEF veterans, is the paired organ legislation. 
Here we are seeking changes in the existing law which simply 
correct some inaccuracies in there which cause some 
restrictions that treat a blinded veteran differently than a 
Social Security recipient when it comes to determining 
disability.
    Right now there are about 78 veterans from the OIF/OEF 
conflicts who are blind in one eye. This legislation would be 
something directly related to compensating them down the road, 
so we think it is very important. Right now we have over 70 
bipartisan cosigners in the House, and we are seeking cosigners 
in the Senate, and we are hoping that someone will be able to 
step up to the plate and help us on this important legislation. 
We stand ready to clarify and to make it clear and work as your 
extenders to understand what this all means.
    The third piece of legislation is actually a resolution 
which I think nobody can object to, since it costs nothing. We 
have a strong feeling that the white cane/guide dog law needs 
to be--not law--Resolution 71 should be supported and passed. 
This gives notice to the States that the Senate, the House, 
supports them putting in their driver's license handbooks 
language that says, ``When you see someone who is blind, with a 
dog or with a cane, pay extra caution.'' All the States have 
this in their laws but it is not in their handbooks.
    And we think by seeing that--three of our Members almost 
got run over here, somebody turning right as we were trying to 
cross the street. Obviously they didn't know what the white 
cane was. Perhaps this could be helped in the future if we had 
this in the State handbooks. Again, it is free.
    And we need a continuum of care. The best example I can 
give you of a continuum of care, and let's use an Iraqi veteran 
right now in San Antonio in the BAMC. A soldier from 
Mississippi is there receiving his rehab. He is totally blind, 
terribly injured. The VA blind rehab specialist, Bob Cozel, is 
going over to the BAMC, providing him rehab while he is active 
duty. He is teaching him how to use a cane. He wouldn't have a 
cane, he wouldn't have a talking watch to tell what time it 
was, if the VA hadn't gone over there and provided these 
support services.
    So we are already working before, in the continuum of care. 
When he gets through with BAMC, he will come out, he will 
become part of the VA, he will go into a blind rehab center. 
When he gets out, this BROS position we are trying to get 
passed would take over the case and provide service to him back 
at his home, teaching him how to use the bus, get around, help 
him with his adjustment. When he gets into voc rehab, they 
continue to follow him. When he gets a job, they continue to 
follow him, help him with his adjustment to the workplace.
    So we think these positions are very important in the 
field, and many areas of the country have no regional rehab 
services. So if veterans live in different areas, these 
positions will make a big difference in their lives, and we 
hope that it passes the whole Congress.
    The other example of continuum of care is the elderly 
veteran who the doctor refers because he is a diabetic and 
can't see his medications, can't read his insulin syringes. He 
needs someone who knows about blindness and the devises and 
things, to get him hooked into the talking blood glucose 
monitors, the magnifiers, the low vision optometrist, to keep 
him in his home, so he doesn't end up having a fall or being 
unnecessarily admitted to the hospital or, God forbid, being 
put into a long-term facility unnecessarily.
    These services in the local community we believe are very 
cost effective and will save money, and that is what we want, 
is to save money, looking at better ways to do things. We want 
the system to be a risk management model, where we are looking 
at solving problems in the field, solving risks, the right 
service at the right time with the right intervention.
    It is not a good continuum of care for someone to be simply 
told, ``There is nothing we can do for you locally. You are 
going to have to be put on a waiting list to go to a blind 
rehab center, and we don't know when you are going to get in, 
but you are just going to have to hold on until you go.'' We 
have found that inadequate and a very poor way of using money 
in the VA.
    [Applause.]
    We think that when it comes to blind rehab services----
    Chairman Craig. We didn't cut you off, Larry. You are doing 
fine, but we would appreciate it if you would wrap up. Thank 
you.
    Mr. Belote. Yes, sir. Thank you for this opportunity, and 
if you have some questions, I will be glad to address those.
    Chairman Craig. Thank you very much, Larry.
    Mr. Belote. Thank you, sir.
    [The prepared statement of Mr. Belote follows:]
        Prepared Statement of Larry Belote, National President, 
                      Blinded Veterans Association
    Mr. Chairman and Members of the Senate Veterans' Affairs Committee, 
on behalf of the Blinded Veterans Association (BVA), thank you for this 
opportunity to present BVA's legislative priorities for 2006. We 
believe it is imperative that Members of this Committee work in a 
bipartisan manner during the second session of the 109th Congress. We 
all strive for the same goal, that of improving access to a high 
quality, fully integrated system of health care and benefits for 
America's veterans.
    The Blinded Veterans Association is the only congressionally 
chartered Veterans Service Organization exclusively dedicated to 
serving the needs of our Nation's blinded veterans and their families. 
Since the end of World War II, when a small group of blinded veterans 
formed BVA, our Association has grown to include blinded veterans from 
several wars and conflicts, and we will soon celebrate in March our 
61st anniversary of continuous service to America's blinded veterans. 
It is vital that our issues and advice be included in this process so 
that we all can make a positive difference in the quality of life for 
the men and women who have sacrificed so much for our freedom.
    BVA would like this Committee to know that the Walter Reed Army 
Medical Center staff alone has treated approximately 120 soldiers with 
either blindness or significant visual injuries. Twenty-seven of these 
soldiers have attended one of the ten VA Blind Centers, and others are 
in the process of being referred for admission. Seventy-eight 
servicemembers, according to Veterans Benefits Administration (VBA) 
data, are service connected for total blindness in one eye from 
Operation Enduring Freedom (OEF) or Operation Iraqi Freedom (OIF) 
injuries. When BVA representatives meet with these brave soldiers who 
have suffered catastrophic, life-altering injuries, the latter ask what 
services and benefits are going to be there to help them recover. 
Recent research has also found that individuals with Traumatic Brain 
Injury have about a 20 percent occurrence of visual field loss, with 
over 2,000 TBI's from OIF, this suggests that the numbers mentioned 
above needing low vision screening and services will grow. It should be 
obvious to Members of this Committee that a new generation of young 
blinded veterans is returning home from Afghanistan and Iraq, and that 
our combined efforts will be extraordinarily important. We must insure 
that we fully support them with the continuum of care and blind 
rehabilitative resources necessary during their transition from active 
duty to veteran status.
    Mr. Chairman, we feel compelled to alert this Committee to what we 
believe to be a significant failure or flaw in the ``Seamless 
Transition'' for visually impaired or blinded servicemembers. We 
learned that servicemembers who have lost total vision in one eye are 
not always being referred to VA for low vision assessment or services. 
We believe many of these individuals most likely have some visual 
impairment in their remaining eye and should receive a comprehensive 
low vision assessment by VA to determine if they meet the definition of 
legal blindness. Such a determination would make a substantial 
difference in the benefits and services for which they would be 
eligible for through VA. Even if they do not meet the definition of 
legal blindness, studies have revealed individuals with only vision in 
one eye, have functional loss of 30 percent of their visual field, 
which VA rehabilitation services could be of assistance in training 
them to compensate for this loss.
    Throughout our 61 years of service, BVA has closely monitored VA's 
capacity to deliver high-quality rehabilitative services in a timely 
manner. Currently, approximately 41,700 blinded veterans are enrolled 
in VA. Demographic research projects that by the year 2010 there will 
be almost 55,000 veterans with blindness or significant low vision 
impairments enrolled. Census Bureau data, however, reveals that there 
are some 167,000 legally blind veterans in the United States. Research 
on blind and low vision Americans show they are at risk of falls, or 
making medication mistakes, resulting in costly hospital admissions 
every year, and of losing their independence to live at home. Falls are 
the sixth leading cause of death in senior citizens and a contributing 
factor to 40 percent of all nursing home admissions with annual Federal 
costs over $45,000 for each nursing home bed. According to Framingham 
Eye Study, 18 percent of all hip fractures among senior citizens--about 
63,000 hip fractures a year--are attributable to vision impairment. The 
cost of medical-surgical treatment for every hip fracture is over 
$39,000, if outpatient rehabilitation services prevented even 20 
percent of these hip fractures, the annual Federal savings in health 
care costs would be over $441 million.
                            critical issues
    Mr. Chairman, 2 years ago BVA presented grave concerns about 
waiting lists of more than 2,500 blinded veterans awaiting entrance 
into one of 10 VA Blind Rehabilitation Centers (BRCs) across the 
country. Thanks to the previous Chairman of the Subcommittee on Health 
of the House Veterans Affairs Committee at that time, the General 
Accountability Office (GAO) investigated the VA blind rehabilitation 
program at every level. GAO then testified before this Committee on 
July 22, 2004 regarding the status of VA services for the blind.
    BVA was grateful to the House Committee for holding that hearing to 
receive the report of GAO, but we are here to report that while some 
progress has been made in reducing the waiting lists and times for 
admission, there are still 1,212 blinded veterans waiting an average of 
almost 19 weeks to enter one of these ten BRCs. Since then, the VA 
Visual Impairment Advisory Board (VIAB) has continued to evaluate VA's 
progress in implementing the recommendations of GAO. At the request of 
the VHA National Leadership Board (NLB) Health Services Committee, VIAB 
commissioned a Gap Analysis to determine where VA currently has vision 
rehabilitation service and where there are gaps in service delivery. 
Additionally, cost estimates were requested to determine funding needed 
to close the gaps identified.
    VIAB is an interdisciplinary board that includes health care 
providers, the Blinded Veterans Association, rehabilitation research, 
prosthetics, and VA network representatives. Due to the increasing age 
of our veteran population and the known prevalence of age-related 
visual impairment, VIAB has identified the need for a uniform national 
standard of care. Along with the GAO report, VIAB also identified a 
need for increased outpatient blind rehab services. The Gap Analysis, 
mentioned above, revealed many areas of the country offer no outpatient 
vision rehabilitation services. There is a need to develop and 
implement a full continuum of vision rehabilitation care that augments 
the services already in place for legally blind veterans. The report 
envisioned the development of a full spectrum of visual impairment 
services.
    To achieve such an objective, the GAO Testimony, the VIAB Report, 
and the VA Gap Analysis all strongly recommended the expansion of the 
Blind Rehabilitative Outpatient Service (BROS) program. As an example, 
Mr. Chairman, the BROS located nearest to us here, servicing both 
Baltimore and Washington, DC, has met with every newly blinded 
servicemember at Walter Reed Army Medical Center and the National Naval 
Medical Center in Bethesda, Maryland. This single BROS is from the 
Baltimore VA Medical Center, where approximately 512 blinded veterans 
are already enrolled and who need his services. The Washington DC VA 
Medical Center, with 541 blind veterans, has no BROS and has depended 
on the Baltimore BROS. Only after almost 3 years of OIF/OEF causalities 
has a new part-time FTEE been established for both Walter Reed and for 
the Washington, DC VA Medical Center. It is time for all blinded 
veterans to receive the right service, at the right place, at the right 
time, without long delays because of tight budgets.
    This early intervention is critical for both the soldier and family 
members in starting the process of learning about blind rehabilitation, 
which includes an introduction to early blind rehabilitation skills. 
The success of the process of adapting to traumatic blindness is 
dependent upon a seamless transition from Department of Defense Medical 
Treatment Facilities to VA Blind Centers. Despite some successes, BVA 
has found serious problems with three of the four VA Poly Trauma 
Centers of Excellence during the past year where there is no BROS on 
staff to facilitate the vital blind rehabilitation training that OIF 
soldiers should experience when they transfer to these centers. Only 
recently, after persistent questioning of the Veterans Health 
Administration (VHA), did they begin to advertise for a BROS FTEE. 
These visits are crucial to the continuum of care for returning 
veterans. Such visits encourage the veterans to continue using the 
skills learned and to adapt to new changes in prosthetics and 
constantly evolving adaptive equipment.
    More than a year ago VIAB presented a proposal to the Health System 
Committee of the National Leadership Board (NLB). The proposal directed 
all Veteran Integrated Service Networks (VISNs) to implement a full 
continuum of care for visually impaired and blind veterans. The 
Committee received the proposal very positively and has recently issued 
a report in November 2005 on the Financial Projections for the 
Expansion of Low Vision Services in the VA's Continuum of Care from the 
gap analysis. We are very pleased that as recently as Jan. 17, 2006, 
the Health Services Committee unanimously endorsed the full 
recommendations of VIAB, including the Gap Analysis and cost estimates. 
The recommendation for the full continuum of vision rehabilitation 
services has now been referred to the Finance Committee of the NLB to 
attempt to identify funding to implement the proposal. BVA supports the 
broad scope of this proposal and, as outlined further in this document, 
we request your oversight assistance in insuring that action is taken 
on these recommendations. Mr. Chairman, BVA believes the only way these 
recommendations can be implemented is for additional funding to be 
included in the VA fiscal year 2007 Appropriation directed for this 
initiative. We respectfully request additional funding be included in 
the ``Views & Estimates'' you will be submitting to the Committee on 
the Budget. VIAB does not dictate to the VISNs how this continuum of 
care should be implemented. BVA would point to successful VA models of 
unique programs across the country, such as the 60 percent increased 
utilization of contracting out Computer Assisted Training (CAT) for 
visually impaired veterans. Although these programs have contributed to 
the decrease in the veteran BRC waiting lists, there still needs to be 
further improvements. Additionally, the provision of a full continuum 
of Vision Rehabilitation Services is now included in the Network Five-
Year Strategic Plans.
    The independent Capital Asset Realignment for Enhanced Services 
(CARES) Commission recommended the establishment of new BRCs in VISN 16 
and VISN 22. These centers have not yet opened. In 2005, another VAMC 
hosting a BRC was targeted for closure. A final decision regarding the 
VA medical center in Waco, Texas, is under review by an outside 
contractor. In light of the Hurricane Katrina devastation to the 
Biloxi, Mississippi VA Medical Center, where one of the new BRCs was to 
be constructed as recommended by the CARES report, BVA would suggest 
that it would be more prudent and cost effective to expand the BRC 
currently located in Waco. This facility would then handle the 
projected increased vision rehab workload in VISN 16. Of course, it 
would be necessary to keep the Waco VAMC open, which would run contrary 
to the recommendation of the CARES report.
    Another recommendation set forth by the Commission states: ``VA 
should develop new opportunities to provide blind rehabilitation in 
outpatient settings close to veterans' homes.'' GAO made a similarly 
strong recommendation in its testimony, indicating that when VA and GAO 
reviewed the waiting list of 1,500 veterans pending admission to BRCs, 
21 percent of them could potentially be served if local BROS were 
available. Mr. Chairman, BVA appreciated the passage of ``The Blinded 
Veterans Continuum of Care Act of 2005'' (S. 1190) last session that 
would increase VA's ability to staff thirty-five new BROS personnel in 
many facilities where none currently exist. We are extremely grateful 
to Senator Salazar for introducing this vital legislation. Clearly, 
BROS provide a cost-effective model of outpatient service delivery.
    BVA strongly supports the concept of assured funding for veterans. 
Our support was strengthened after the admission last June that VA was 
insufficiently funded by more than $1.2 billion in fiscal year 2005 and 
$1.9 billion in fiscal year 2006 because of the current funding model 
process. This admission and revelation were not surprising to the 
VSO's. They did, however, appear surprising to those in Congress who 
have been content with the current discretionary process. The 
Independent Budget (IB) has, for many years made accurate funding 
projections for the amount really needed for VA health care. IB members 
had projected the shortfall long before last March. As always when such 
shortfalls occur, veterans waiting times grew, veterans appointment 
lists expanded, and the bureaucracy pointed fingers at who was to 
blame. The reality is that discretionary funding leaves more room for 
partisan politics than it does for health care for veterans. As a 
member of the Partnership for Veterans Health Care Budget Reform, our 
membership strongly believes that Members of Congress must change the 
current modeling system that constantly leads to shortfalls. The 
Partnership supports moving VA health care from a discretionary to an 
assured funding method with a new model to prevent the shortages that 
occurred during the first session of this Congress. Assured funding 
would neither change the current eligibility requirements nor create a 
new entitlement benefit program. It would rather create a formula that 
would ensure necessary appropriations each year based on current 
enrollment, and the annual increased inflationary costs associated with 
the provision of excellent medical care.
    The lack of predictability and accountability of the modeling used 
for the VA budget process allows only the status quo at best. The 
consequences can only be long waiting lists, decreased access, and risk 
of damage to the high quality of care that VA has built. If VISNs are 
receiving their budgets at the start of the second quarter through a 
fiscal year, and are not sure when the year's funding will really be 
passed by Congress, why would they invest in any type of new 
initiative, never knowing when the money will catch up, or if any will 
be there during that budget year? Assured funding and implementation of 
a full continuum of care for blind and visually impaired veterans are 
inextricably linked.
                               background
    We are all painfully aware of the aging veteran population and the 
increasing need and demand for health care services associated with 
aging. Mr. Chairman, aging is the single best predictor for blindness 
or severe visual impairment. As the overall population of veterans 
ages, more and more of them are losing their vision, requiring 
rehabilitative services. Because of all the other chronic medical 
problems associated with aging, more and more members of our blinded 
veteran population are either unable or unwilling to leave home to 
attend a comprehensive residential BRC. The primary obstacle is the 
fact that enrolling in the BRC often necessitates traveling hundreds of 
miles to the nearest facility. The Gap Analysis survey found that 47.4 
percent of the older veterans on VIST rolls who would benefit from 
blind rehabilitation training actually declined to attend one of the 
ten blind centers. A common reason for a refusal to attend a BRC is a 
serious health problem or disability of a spouse. Consequently, the 
blinded veteran who has often been a long-term recipient of care 
himself/herself becomes, out of urgency and necessity, the primary 
caregiver. In such instances it is impossible for the blinded veteran 
to spend several weeks in an inpatient residential blind rehabilitation 
program.
    Mr. Chairman, there is absolutely no question that comprehensive 
residential BRCs provide the most ideal environment to maximize a 
blinded veteran's opportunity to develop a healthy and wholesome 
attitude about his/her blindness and acquire the essential adaptive 
skills to overcome the many social and physical challenges of 
blindness. This is especially true for newly blinded young veterans 
such as those now returning from Iraq and Afghanistan. The BRC becomes 
even more important for many of these blinded servicemembers because 
they suffer from multiple traumas that include traumatic brain injury, 
amputations, and sensory loss. The training can also be advantageous to 
older veterans since intense repetitive training is often necessary to 
learn new skills. The BRC can bring the entire array of specialty care 
to bear on these severely wounded servicemembers, optimizing their 
rehabilitation outcomes and encouraging a successful reintegration with 
their families and communities. Frankly, Mr. Chairman, there is no 
better environment to facilitate the emotional adjustment to the severe 
trauma associated with loss of vision and to provide comprehensive 
initial blind rehabilitation.
                            current services
    Mr. Chairman, I will now briefly describe each of the essential 
components offered by VA Blind Rehabilitation Service and the 
challenges each is facing. We believe strongly that each of these 
services is an integral part of the full continuum of blind 
rehabilitation services that VA should strive to provide.
A. Blind Rehabilitation Centers
    VA currently operates ten comprehensive residential Blind 
Rehabilitation Centers across the country. The first blind center was 
established at the VA Hospital at Hines, Illinois, in 1948. Nine 
additional BRCs have been established and strategically placed within 
the VA system. The sites include VAMCs in Palo Alto, California (1967); 
West Haven, Connecticut (1969); American Lake, Washington (1971); Waco, 
Texas (1974); Birmingham, Alabama (1982); San Juan, Puerto Rico (1990); 
Tucson, Arizona (1994); Augusta, Georgia (1996); and West Palm Beach, 
Florida (2000). The mission of each BRC is to address the expressed 
needs of blinded veterans so they may successfully reintegrate back 
into a community and family environment. To accomplish this mission, 
BRCs offer a comprehensive and individualized training program 
accompanied by services deemed necessary for a person to achieve a 
realistic level of independence. The environment is residential but 
located within a VA facility in order to provide medical services to 
blinded veterans while they participate in the rehabilitation process.
    Approximately 1,212 blinded veterans are waiting an average of more 
than 19 weeks to be admitted into one of these ten BRCs. The good news 
this year, however, is that the number has declined from the 1,500 in 
March 2004. Unfortunately, a majority of even the simplest services are 
not yet routinely made available at the local level. The recent Gap 
Analysis found that only 14 medical centers reported being able to 
provide advanced low vision care. Only 26 said they could provide 
intermediate low vision care. Some 78 facilities reported only basic or 
no outpatient services for blindness or low vision care! For the more 
than 30 percent of the blinded veterans who do attend a comprehensive 
BRC, there is usually no continuum of outpatient care when they return 
home. In order to preserve the integrity of these BRCs, more outpatient 
and local services must be provided.
B. Visual Impairment Services Team (VIST)
    The mission of each VIST program is to provide blinded veterans 
with the highest quality of adjustment to vision loss services and 
blind rehabilitation training. To accomplish this mission, VIST will 
establish mechanisms to maximize the identification of blinded veterans 
and to offer a review of benefits and services for which they are 
eligible. The VIST concept was created in order to coordinate the 
delivery of comprehensive medical and rehabilitative services for a 
blinded veteran. The ``teams'' were created in 1967. In 1978, VA 
established six full-time VIST Coordinator positions. Currently, the VA 
system employs 93 full-time VIST Coordinators who usually work alone to 
take care of an average of 375 veterans. The VIST Coordinators serve as 
the case managers for the known 41,700 blinded veterans nationwide, a 
number that is estimated to increase to 54,000 within 10 years.
    VIST personnel associated with a given VIST Coordinator are in the 
unique position of providing comprehensive case management services for 
the returning blinded OEF and OIF servicemembers for the remainder of 
their lives. They can assist not only the newly blinded veteran but 
also his/her family with timely and important information that 
facilitates psychosocial adjustment. The ideal of a seamless transition 
from DOD to VHA is best achieved through the dedication of VIST and 
BROS personnel.
    A few of the VIST Coordinators have been very aggressive in 
identifying local resources capable of delivering needed services to 
blinded veterans in their homes. Regrettably, only a few are managing 
such dynamic VIST programs. The majority of the Coordinators rely on 
the BRC because many have no local BROS orientation or mobility 
services. If the veteran is unable to attend a BRC program, he/she goes 
without service in those circumstances. We find also that many rural 
remote regions have no local private blind services of any kind, 
leaving the veteran with no options. Full implementation of the 
continuum of vision rehabilitation services should remedy this 
shortcoming. Given the increasing numbers of severely visually impaired 
and blinded veterans, BVA believes and has always maintained that any 
VA facility that has 150 or more blinded veterans on its rolls should 
have a full-time VIST Coordinator. BVA has found that the lack of VIST 
services is often due to the actions of local facility managers who 
seek to avoid the cost of even one FTEE position. In such cases 
management has insisted that part-time positions manage these duties 
along with other collateral duties.
C. Blind Rehabilitation Outpatient Specialist (BROS)
    The other highly specialized outpatient program offered by BRS is 
the BROS program. This relatively new (at least for BRS) approach to 
the delivery of services is provided to blinded veterans who cannot 
attend a BRC program. Veterans who attended a BRC and who would 
otherwise lack continuum of care follow-up are also beneficiaries of 
the program. Such veterans in the latter case often require some 
additional training due to changes in adaptive equipment or technology 
advances. Ten years ago, VA BRS did not possess the workforce to carry 
out effective follow-up to assess how effectively the veteran had 
transferred the newly learned skills to his/her home environment. 
Fourteen BROS were hired in 1995-1996, while a relatively small number 
of professionals, the creation of these initial BROS positions provided 
VA with an excellent opportunity to provide accessible, cost effective, 
quality outpatient blind rehabilitation services. The number of BROS 
has increased to 24 since the original appropriation.
    The BROS is a highly qualified professional who, ideally, is dually 
certified; that is, he/she has a dual Masters degree both in 
Orientation and Mobility (living skills and manual skills) and 
Rehabilitation Teaching. In the absence of such dually credentialed 
professionals, masters level blind rehabilitation specialists should be 
selected for these positions and receive extensive cross training at 
one of the BRCs. Such training prepares these individuals to provide 
the full range of mobility, living, and adaptive manual skills that are 
essential in the veteran's home environment.
    The delivery of such outpatient rehabilitative service is the most 
cost efficient method for those veterans who have rehabilitation needs 
but are unable to attend the residential program to receive care. 
Surveys in the Gap Analysis found that some medical centers were paying 
$90 per hour ($450 daily) for private blind training when it was 
available. Some centers had an average annual expenditure of more than 
$70,000 for contracted private blind services. Veterans must not be 
denied essential rehabilitative outpatient services simply to save a 
few dollars up front.
    The rapidly growing older blinded veteran population, as mentioned 
previously, is clearly the therapeutic target for this type of service 
delivery. The highly skilled BROS professionals conduct comprehensive 
assessments of the newly identified blinded veteran's needs to 
determine if referral to a residential BRC is necessary. If residential 
training is the appropriate response, the BROS may also provide some 
initial training before admission, potentially reducing the length of 
stay in the BRC. Since it is more efficient to provide as much care as 
possible in an outpatient setting, according to GAO testimony is a 
statement that 21 percent of all veterans on waiting lists for 
admission to a BRC could receive care through local blind outpatient 
services. Under CARES, each admission to a BRC costs $28,900 per 
veteran therefore, even 240 veterans a year were instead provided local 
VIST/BROS services, the internal BRC inpatient cost saving would be an 
estimated $7,900,000 yearly.
D. Computer Access Training (CAT)
    Because of the fiscal year 1995 VA appropriation of special funds 
earmarked for VA BRS, monies were made available to establish Computer 
Access Training (CAT) programs at the five major blind rehabilitation 
centers. Over the intervening years, CAT programs have been established 
at the remaining five BRCs. However, the demand for admission to these 
programs has dramatically increased to the point that an eligible 
blinded veteran has been waiting a year or more to be admitted. There 
are approximately 396 blinded veterans presently waiting for more than 
21 weeks to attend a blind center for both rehabilitative and CAT 
``dual'' training. The problem is that many veterans live in rural and 
remote regions where local services are not available. They must attend 
a blind center or be left without training.
    Having to admit a blinded veteran to an inpatient VA BRC for this 
specialized computer training, which includes housing the blinded 
veteran in a hospital bed, is unnecessarily expensive. The good news is 
that, despite all of the obstacles, local training has increased. On 
May 5, 2004, 674 veterans were waiting for admission to a BRC for CAT 
training. This list was reduced by local CAT contracted services for 
520 of these veterans by August 1, 2004. This successful result is due 
in large part to the GAO study of VA BRS service delivery and its 
subsequent recommendations. It involves the referring of most blinded 
veterans to local resources, if they can be appropriately located, for 
CAT training. The reduction in the BRC waiting lists from more than 
2,500 veterans in 2003 to 1,212 at present involves a more effective 
utilization of CAT resources. Some BRCs have been, correspondingly, 
returning beds previously dedicated to CAT training back to the basic 
adjustment program. Continuing to contract services in a similar 
manner, greater progress could be achieved in decreasing the long 
waiting times for younger veterans who require the full services of the 
blind centers.
E. Visual Impairment Services Outpatient Rehabilitation (VISOR)
    In 2000, VA Stars and Stripes Healthcare Network 4 initiated a 
revolutionary program to deliver services: Pre-admission home 
assessments complimented by post-completion home follow-up. An 
outpatient, 9-day rehabilitation program called Visual Impairment 
Services Outpatient Rehabilitation Program (VISOR) offers skills 
training, orientation and mobility, and low vision therapy. This new 
approach combines the features of a residential program with those of 
outpatient service delivery. A VIST Coordinator, with low vision 
credentials, manages the program. Staff consists of certified 
Orientation and Mobility Specialists, Rehabilitation Teachers and Low 
Vision Therapists.
    VISOR is currently located at the VAMC in Lebanon, Pennsylvania, 
and treats patients in Network 4. This service outside the box delivery 
model is noteworthy. Patient satisfaction with the program is nearly 
100 percent, according to the VA Outcomes Project. Two current 
documents, Gap Analysis: Vision Rehabilitation Services for Veterans 
Final Report (Atlanta VA Rehabilitation R & D Center of Excellence for 
Veterans with Vision Loss), and The Low Vision Services in the VA's 
Continuum of Care for Veterans with Visual Impairment (VIAB Final 
Report), recommend that this delivery model should be considered for 
replication within each Network. The program uses hospital beds to 
house veterans. The beds do not require 24-hour nursing coverage and 
are similar to staying in a hotel. Emergency care is available within 
the VAMC. The expenses associated with expanding this new cost-
effective outpatient rehabilitation program from one facility to 11 
facilities would be $5,474,733 for the initial year. Annual recurring 
costs to maintain these 11 programs, however, would be $4,700,883. This 
recurring cost works out to $427,353 per VISOR facility for all 
staffing, equipment, office supplies, and training. VISOR's annually 
projected caseload of 550 veterans (50 per VISOR facility) would cost 
an estimated at $8,545 per veteran, one-third of the $28,900 for a 
month at one of the BRCs.
    The VISOR program is providing functional outcome data to the 
Outcomes Project and will make possible the comparison of functional 
outcomes derived from this approach with that of the more traditional 
residential BRC. Early functional outcome data indicates that the 
approach is very effective. Profiles gathered from early data suggest 
that visually impaired elderly veterans relatively free from the health 
burdens typically seen in veterans attending the traditional BRC and 
who have relatively high degrees of residual vision, benefit the most 
from this rehabilitation approach. VA should be supported in its 
national leadership role in the field of blind rehabilitation services 
and must continue to explore additional alternatives in addressing the 
needs of blinded veterans.
F. Visual Impairment Center to Optimize Remaining Sight (VICTORS)
    Another important model of service delivery that does not fall 
under VA Blind Rehabilitation Service is the VICTORS program. The 
Visual Impairment Center To Optimize Remaining Sight (VICTORS) is an 
innovative program operated by VA Optometry Service. This is a special 
program designed to provide low vision services to veterans who, though 
not legally blind, suffer from severe visual impairments. Generally, 
veterans must have a visual acuity of 20 over 70 or less to be 
considered for this service. The program is typically a very short 
(five-day) inpatient experience in which the veteran undergoes a 
comprehensive low vision evaluation. Appropriate low vision devices are 
then prescribed, accompanied by necessary training with the devices. It 
should be noted that one of the VICTORS programs has converted to a two 
and one-half day outpatient program and utilizes hospital beds for 
veterans who live too far away from the facility to commute daily.
    VICTORS has achieved the same outcomes and objectives as its 
inpatient counterpart. Veterans who are in most need of these programs 
are those who may be employed, but, because of failing vision, feel 
they cannot continue. The program enables such individuals to maintain 
their employment and retain full independence in their lives. 
Unfortunately, Mr. Chairman, there are only three such programs 
currently within VHA. VIAB has recommended one VICTOR center in each 
Network where no programs exist. This would result in creating eleven 
of these special programs. We submit that there is a critical need for 
these programs to assist veterans in their quest to remain in the 
workforce. In fact, the expansion of VICTORS could further assist 
severely visually impaired (legally blind) or blinded veterans who have 
already attended a residential BRC, received low vision aids, and who 
now require only modifications. The effectiveness of new technology 
aids could be reviewed and researched. New prescriptions could be 
written when appropriate. Consequently, veterans would avoid the 
necessity of readmission to the much more expensive BRC for such 
reviews and evaluations.
                   effects of vera on rehabilitation
    BRCs are admittedly resource intensive and costly. Currently, these 
programs are being viewed as potential revenue sources under the 
Veterans Equitable Resource Allocation (VERA) model. As previously 
mentioned, BVA is pleased with the introduction of VERA 10 as recently 
modified. Instead of a blanket rate of $42,000 for the higher 
reimbursement rate, BRCs will now be reimbursed in Group 7 at $29,737. 
A great deal of gaming occurred because of the high variance between 
the high and basic reimbursement rates.
    If these services are necessary, they should be provided in either 
a hospital environment or, even more appropriately, in the blinded 
veterans' home areas. More focused outpatient programs using hospital 
beds are not reimbursed at the higher rate. The incentive is to admit 
blinded veterans to the inpatient bed at the BRC. When BRCs institute 
shorter programs, veterans are shortchanged. Programs such as VISOR and 
VICTORS admit a population with typically high residual vision (usually 
macular degeneration) and few, if any, co-morbidities. BVA recommends 
that these services should be funded and provided in the local area. 
Our concerns are especially relevant now that DOD Military Training 
Facilities are referring more young service personnel who have been 
blinded totally and who need the comprehensive residential BRC program. 
The rehabilitative needs of this new population cannot be serviced in 
so-called short programs. There is no question that much longer stays 
should and must be anticipated for these very special veterans. 
Shortcuts for reimbursement advantages cannot be tolerated.
    The inability to track funds allocated to the Networks through VERA 
is another frustrating aspect of the funding issue. It is even more 
difficult, if not impossible, to track dollars allocated to the 
individual facility within the Network. Dollars allocated to the host 
facilities are not fenced or earmarked for blind rehabilitation. 
Consequently, facility directors and BRC managers cannot determine how 
much funding they have received to operate these special programs.
    The decentralized resource allocation practice provides an apparent 
lump sum to each facility from which they have the discretion and 
responsibility to operate all the programs and services assigned to 
that facility. Mr. Chairman, there must be a more clearly defined 
method for tracking these resources to insure that the specialized 
programs for which the Network and facilities are receiving the high 
reimbursement rate are indeed being utilized for those purposes. 
Theoretically, VERA provides Networks with sufficient funds to operate 
the special disabilities programs. Unfortunately, BRCs are continually 
required to share in facility FTEE reductions or freezes because of 
funding shortfalls. Field managers strenuously resist demanding this 
degree of accountability. They complain that this will infringe upon 
their flexibility as managers to establish priorities and carry out 
their assigned missions. Priority has been given to establishing 
greater capacity for outpatient services and new Community Based 
Outpatient Clinics (CBOCs) at the expense of tertiary care capacity.
                               oversight
    Mr. Chairman, as previously mentioned, the last oversight hearing 
by the House Committee was held on July 22, 2004 to receive GAO's 
report on VA blind rehabilitation services. The comprehensive report 
examined the history and future issues surrounding such services to 
veterans. Consistent with BVA's concerns, GAO found that there were 
serious inconsistencies from BRC to BRC as to how waiting lists were 
managed and waiting times calculated. They found that several BRCs were 
not complying with program office directions and policies. Regarding 
the current delivery models, we can point to the GAO and VIAB 
recommendations that there must be greater utilization of outpatient 
services in new BROS and VISOR programs, along with supporting changes 
occurring in the CAT program.
    BVA believes that significant progress has been achieved following 
the release of the GAO reports, but we are concerned that resistance 
remains among some management employees. Starting with VHA, the 
National Leadership Board, and the Medical Center Director level, a 
clear goal should exist to provide high quality, cost-effective blind 
rehabilitation services in the continuum to which we have continually 
referred. We have pointed out in the past that a culture change must 
occur if BRS is to modernize in delivering cost-effective, appropriate 
outpatient blind rehabilitation services. Therefore, Mr. Chairman, we 
believe it is essential for this Committee to investigate issues 
presented today, and to hold a follow-up hearing in the future to 
assess VA's progress in implementing the VIAB and GAO recommendations.
     department of veterans affairs fiscal year 2007 budget request
    The Office of Management and Budget's fiscal year 2005 and fiscal 
year 2006 budget requests are prime examples of the urgent need for 
assured funding. The gaming must end, and old models that do not 
include the current thousands of returning OEF and OIF servicemembers 
requiring care must be changed. BVA urges the members of these 
Committees to support a new model that would assure adequate funding. 
Further hearings could then be limited to the budgetary issues only.
    As in years past, we are deeply concerned the fiscal year 2006 
budget request fell short by $1.9 billion, and we once again predict 
inadequacy in the fiscal year 2007 budget requirements to adequately 
address the health care needs of an aging veteran population. We all 
heard Under Secretary for Health Dr. Perlin when he testified last 
summer that VHA needed a $1.9 billion increase for fiscal year 2006, 
plus another $1 billion just to maintain current services once all the 
increased co-payments and other gimmicks were subtracted. As in past 
years, VA is being forced to rely more heavily on first and third-party 
collections to substitute for appropriation. These collections always 
fall short of their estimates.
    To project a subsequent year's budget, the current discretionary 
appropriations process subjects' veterans health care to numerous 
political agendas rather than to (1) a real model calculated on the 
number of veterans currently enrolled this year, (2) an index for 
inflation, and (3) an average cost for each veteran using VA health 
care.
    The fiscal year 2006 Military Construction and Veterans Affairs 
Appropriations bill allows for $1.2 billion in emergency funds to make 
up for shortfalls if they occur. BVA questions why, if the defenders of 
the status quo discretionary funding system are so sure of budget needs 
each year, is emergency funding even required? Why would implementation 
of a new model of assured funding be less attractive?
    Clearly, there will be insufficient funds to enable VA to implement 
the full continuum of vision rehabilitation care as recommended by GAO 
and VIAB if the traditional discretionary modeling process continues. 
The fact is that because of the problems that occurred with the fiscal 
year 2006 budget process, some medical centers are already freezing 
levels of staffing and are not hiring replacements. Therefore, it is 
highly unlikely that medical centers will be able to consider hiring 
new employees qualified to provide vision rehab services. Local travel 
and educational funding are also being slashed as a result of the 
fiscal year 2006 budget.
    Given the current budget climate, VA medical facilities will almost 
certainly restrict or eliminate the use of funding to contract for 
local fee services, again negatively affecting provision of a continuum 
of vision rehabilitation services. BVA is gravely concerned that 
funding for essential prosthetic services and equipment will be 
severely curtailed with this budget modeling process. Medical centers 
will, out of necessity and within the culture of cost efficiency, 
continue to confine operations rather than create new programs. This 
will affect not only blinded veterans but all disabled veterans. The 
President's fiscal year 2007 budget request will again prevent Category 
8 veterans from being able to utilize VA, keeping thousands away from 
the VA health care system. The most interesting thing about this 
approach is that veterans with the least health care burden--those 
working and with their own health insurance who bring their own medical 
care dollars into the system--are the ones who will be denied access. 
Focusing solely on the so-called core veterans will certainly 
compromise VHA's ability to provide the full scope of preventive and 
acute care services. Those in the so-called core group benefit 
tremendously from the specialized services provided by VA, but they 
also need the full array of basic healthcare services. While Members of 
Congress decry the budgetary shortages last summer, the House and 
Senate have repeatedly failed to provide a new model of assured 
adequate appropriations to sufficiently fund the VA health care system. 
Responsibility for the constant under funding of VA health care through 
the discretionary process rests with both past and present Presidential 
administrations and the Congress.
    Mr. Chairman, service in the Armed Forces of the United States must 
count for something more than a few laudatory speeches each year. Care 
for America's veterans must be one of our country's highest priorities. 
Clearly, the President wants to care for the heroes returning from 
Afghanistan and Iraq, but it must not be accomplished at the expense of 
those who have served in previous wars and conflicts. Similarly, we 
cannot forget about those who served honorably but did not have to be 
deployed into harm's Way, or who did not suffer traumatic emotional or 
physical disabilities as a direct result of their service. No matter 
what their circumstance, many have served our Nation and now need help. 
National policy must recognize that care of our veterans is an integral 
component of national defense.
    BVA is also deeply disturbed by the proposed change in eligibility 
criteria for long-term care. The change would result in the elimination 
of substantial numbers of nursing home beds within VA and, even more 
importantly, substantially reduce the per diem payments currently made 
by VA to state veterans homes. The state veterans' homes have been 
extraordinarily successful. They have been important partners in VA's 
ability to provide long-term care. This change may very well cause 
veterans currently in state veterans' homes to be discharged. It is 
highly unlikely that the states can make up for the loss of the VA 
payments. Paradoxically, if funding remains the only driving force 
behind care, then funding issues will drive the culture of VA long-term 
care. Creation of the innovative programs that utilize technology and 
human resources will be de-emphasized.
    What is most alarming Mr. Chairman, is that the current budgetary 
situation as I have described in terms of the blinded veterans, so 
called efficiencies saving games that can not be shown to GAO, 
profoundly negatively impact the budget, and results in shortages every 
year. The continuously negative budgets will influence the specialized 
programs for blinded veterans and will be reflected in other special 
disabilities programs that must fight for every single dollar. If VHA 
is not fiscally healthy, the specialized programs for the core veterans 
will not be healthy either.
                    veterans benefits administration
    VBA is also facing major problems. After a few years in which the 
number of claims pending decreased, there has been a reversal. Some 
400,000 are now in a logjam. BVA is painfully aware of the chronic 
backlogs for claims pending before VBA and the Board of Veterans 
Appeals, and the years of promises that the system is going to be 
fixed. Once again, this budget fails to provide the necessary resources 
to adequately assist VBA in its efforts to reduce these unconscionable 
backlogs. Veterans are literally waiting two or 3 years for claims to 
be adjudicated or appeals to be resolved. Shortages of qualified 
adjudication officials and rating specialists have resulted in 
inaccurate decisions leading to more appeals. Clearly, if claims were 
properly developed at the local VA Regional Office (VARO), the number 
of appeals would drop dramatically. Unfortunately, the VAROs are not 
doing a good job of assisting veterans in developing their claims.
    It is disconcerting that some blame the veterans and the VSO 
service officers for filing too many claims. Recent articles have 
revealed that a large percentage of phone calls from veterans to VA 
requesting information on benefits are answered incorrectly more than 
25 percent of the time. The government should not depend on the VSOs to 
do their job of instructing veterans properly on the benefits they have 
earned. More resources are sorely needed to improve staffing and 
provide new computer systems that integrate servicemembers' medical 
records into both the VBA and VHA information technology processing 
system.
    BVA members have been alarmed over many statements made over the 
past year that suggest or make accusations that veterans who are 
disabled are receiving too much compensation and therefore don't want 
to work. Public remarks that it is very easy in the current employment 
market to be employed imply that the disabled veteran must be lazy or 
uninterested in finding work! Recent multiple research studies have 
indicated that the labor force and employment trends for the disabled 
population have not been consistent with the trends of the non-disabled 
workforce population. The labor force rate of participation increased 
for the non-disabled population from 1970 to 2000 while it decreased 
for the disabled population.
    The employment rate of the disabled did in fact decrease from 26 
percent in 1996 to 19.5 percent in 2003. In addition, labor market 
earnings research during the past two decades has consistently found 
that the disabled earn less than non-disabled workers with many working 
at minimum wage jobs that offer few benefits. Literature reviews reveal 
that disabled persons suffer lost earnings capacity and that such loss 
of capacity is affected even further by such factors as age, education, 
and socioeconomic characteristics. The National Institute on Disability 
and Rehabilitation Research found that for people with no disability, 
the likelihood of having a job or business is 82.1 percent. For people 
with a mild disability, the employment rate is 76.9 percent. For those 
using a cane, crutches, or a walker, the rate is 27.5 percent while 
those relying on a wheelchair for mobility were able to find employment 
in 22 percent of the cases. For individuals with visual impairments 
(unable to read letters), the employment rate is only 30.8 percent. 
Instead of trying to develop plans to prevent disabled veterans from 
receiving compensation benefits, we recommend that the Members of this 
Committee first look at what can be done to improve vocational, 
rehabilitative, and educational programs or benefits for those needing 
assistance in finding employment. The incorrect assumption is that 
simply because the United States has gone from an agricultural or 
industrial-centered economy to one highlighted by telecommunications, 
high technology, and automation, the employment field is now level for 
every disabled person. A recent 55-page report from the Office of 
Personnel Management also revealed that the number of veterans employed 
in the Federal Government in 1994 (558,347 or 28 percent of the Federal 
workforce), decreased over the subsequent 10 years (453,793 or 25.1 
percent) in 2004. If the aforementioned assumptions and assertions 
statements were even remotely true, the employment rates for the 
disabled would not have decreased since 1994.
    BVA members also believe that disability benefits should cover loss 
of earnings and include compensation for quality of life. Because of 
the injuries they have sustained, veterans who have suffered 
catastrophically and have lost mobility, and independent ability to 
perform routine daily tasks, and opportunities for social interaction 
should receive benefits that include compensation for the change in 
their quality of life.
                           independent budget
    BVA is very proud to again endorse the Independent Budget, prepared 
by four of the major VSOs: AMVETS, Disabled American Veterans, 
Paralyzed Veterans of America, and Veterans of Foreign Wars. This is 
the 21st consecutive year that BVA has endorsed the IB. Along with many 
other VSO's; we participated in the preparatory sessions and provided 
input to the formulation of this extremely important document. We trust 
that this Committee will read the document carefully. It contains many 
important and constructive suggestions regarding VA health care 
delivery. The IB outlines a clear blueprint for addressing VA medical 
care delivery, including policy decisions and funding. BVA believes 
that these suggestions are very sound and that they should receive 
serious consideration as the budget process moves forward.
    The fiscal year 2007 budget must keep pace with the increased 
medical costs in salaries, benefits, goods, and services utilized. The 
recently passed fiscal year 2006 appropriations included $3.3 billion 
for operating and maintaining VA medical facilities, $464 million less 
than the 2005 level. While the medical and prosthetics research budget 
for fiscal year 2006 did include $412 million, a $10 million increase 
over 2005, BVA is concerned that the fiscal year 2007 budget will not 
keep pace with the urgent needs for expansion in this area. 
Additionally, the recommended funding level must also enable VA to more 
adequately fund congressionally mandated initiatives. It is vital to 
VHA's mission to have the research funding necessary for continued 
medical advances. These funds are critical to VHA's ability to attract 
and retain clinicians who are seeking the opportunity to conduct 
research in prosthetics.
                           prosthetic service
    As reported last year, BVA is very pleased with the outcome of the 
Prosthetic Clinical Management Program (PCMP) as it affects visually 
impaired and blinded veterans. The stated focus of the PCMP is the 
quality of prescriptions rather than only the dollars expended for the 
prescriptions.
    The driving activity behind PCMP is the establishment of work 
groups composed of clinicians to review the prescription practices 
associated with an individual prosthetic device. As a result of efforts 
by BVA, DAV, and PVA, consumers were allowed to be members of the work 
groups. Were it not for the fact that BVA had an opportunity to 
actively participate in the work groups related to aids and appliances 
for the blind, visually impaired and blinded veterans would not have 
faired very well. The work groups have been tasked with developing 
specifications for the device in question and recommendations for 
issuance. The intent of the specification development is to facilitate 
the establishment of national contracts for a device if the majority of 
the devices are procured from one vendor.
    BVA has some reservations regarding the potential for 
standardization that works on the premise that one size fits all. 
Severely disabled veterans need to be treated as individuals with 
unique needs who might not always benefit from a standard device. The 
opportunity must exist for clinicians to prescribe items not on 
national contract, even if they are more expensive, without fear of 
reprisal from local or Network management. The effort to standardize 
the purchasing practices of VHA with respect to prosthetic services has 
been successful in large part to centralized funding for prosthetics. 
The combination of centralized funding and improved prescription 
practices has clearly enhanced disabled veterans access to high quality 
state-of-the-art Prosthetic Sensory Aids and Appliances. Mr. Chairman, 
we do wish to commend PSAS for their outstanding efforts overall to 
insure a seamless transition for servicemembers transitioning from DOD 
to VA.
                  va medical and prosthetics research
    BVA supports the Friends of VA Medical Care and Health Research 
(FOVA) request for $460 million for fiscal year 2007 for investments in 
veteran-centered research projects at VA. Such projects in the past 
have led to an explosion of knowledge that has advanced the 
understanding of many diseases and unlocked strategies for prevention, 
treatment, and cures. Additional funding is needed to take advantage of 
the burgeoning opportunities to improve quality of life for our 
veterans and the Nation as a whole. VA must concurrently address the 
needs of its longstanding patient base as well as the evolving 
challenges being presented by our newest veterans. With these funds, it 
is expected that VA would pursue the following in fiscal year 2007: 
prosthetics, PTSD, depression, neuromuscular diseases, and other 
specialized research. This funding level would also allow for an 
increase in funding for Rehabilitation Research & Development so 
desperately needed during this period of war. It would also allow the 
continuation of several RR&D initiatives in the area of retinal 
implants and/or prostheses.
    BVA feels strongly that legislation should be initiated that would 
require the National Institutes of Health (NIH) to pay VA for the 
indirect cost of NIH-funded research grants. Currently, NIH pays for 
the indirect cost to almost everyone receiving NIH grants except for 
VA. Consequently, VA must utilize medical care dollars to cover the 
indirect costs. These are funds that could be used to provide medical 
care to veterans. We believe that this policy is grossly unfair to sick 
and disabled veterans in need of medical care and to a health care 
system already forced to operate with constrained funding. NIH has 
refused every effort by VA to seek payment for these indirect costs. We 
therefore believe that legislative action is required.
                      other legislative priorities
    BVA believes these issues are vital to the survival of VA and to 
services and benefits for blinded veterans. Some of these issues are 
unique to veterans and others are applicable to all blind Americans.
    A. BVA strongly encourages passage of H.R. 515, The Assured Funding 
for Veteran's Health Care Act of 2005, which will institute mandatory 
funding for VA health care. We would encourage this committee to have a 
hearing on this issue.
    B. Authorizing VA to retain third-party collection should be viewed 
as a supplement to, and not as a substitute, for Federal funding. 
Veterans and their insurance companies should not be required to pay 
for veterans' health care as this is clearly a moral obligation and a 
responsibility of the Federal Government.
    C. BVA, along with the veterans and military organizations, 
supports legislation stopping the offset between the Survivor Benefit 
Plan (SBP) and Dependency and Indemnity Compensation (DIC). SBP is 
purchased by the retiree and is intended to provide a portion of 
retired pay to the survivor. DIC is a special indemnity compensation 
paid to the survivor when a member's service causes his or her 
premature death. In such cases, the VA indemnity compensation should be 
added to the SBP the retiree paid for, not substituted for it. It is 
also noteworthy as a matter of equity that surviving spouses of Federal 
civilian retirees who are disabled veterans, and who die of military 
service-connected causes, can receive DIC without losing any of their 
purchased Federal civilian SBP benefits.
    D. BVA requests that this Committee hold a hearing on ``The 
Disabled Veterans Equity Act'' (H.R. 2963), which currently has 70 
bipartisan co-sponsors. In 2002, Congress passed and the President 
signed P.L. 107-330. The law included a provision (Section 103) to 
correct a similar deficiency in the Paired Organ law. Currently, a 
veteran, who is service connected for loss of vision in one eye due to 
injury or illness incurred on active duty is denied additional 
disability compensation if they become legally blind in the remaining 
eye. Because the Paired Organ section on vision did not address the 
legally accepted definition of blindness, (visual acuity 20/200, or 
loss of field of vision to 20 degrees), some veterans are denied an 
increase in compensation if they become legally blinded in both eyes. 
This change in the law would only affect a small percentage of the 
13,109 veterans who are service connected for loss of vision in one 
eye. We would argue that for the veteran with blindness in one eye who 
subsequently loses vision in his/her remaining eye, full paired organ 
benefits should not be denied. Research reveals that less than 5 
percent of the current service-connected veterans for loss of vision in 
one eye would eventually lose vision in the remaining eye.
    E. BVA strongly encourages Congress to adopt legislation that would 
provide full concurrent receipt for all military retirees who have 
suffered service-connected disabilities The VSOs responsible for 
development of the Independent Budget have urged Congress to correct 
this serious inequity. Congress should enact legislation that repeals 
the inequitable requirement that veterans' military retired pay based 
on longevity be offset by an amount equal to their VA disability 
compensation.
    F. BVA strongly supports the provision of a full Cost of Living 
Adjustment (COLA) for veterans receiving disability compensation and 
surviving spouses and dependent children receiving DIC. Further, we 
support this COLA being made effective December 1, 2006.
    G. BVA encourages the U.S. Senate to adopt legislation introduced 
by Senator Specter. ``The FAIR Act'' (S. 852) establishes a national 
trust fund that would provide equitable compensation to Americans 
suffering from illnesses caused by exposure to asbestos. The national 
trust fund would replace the current tort system that is clearly broken 
and causes many disabled veterans to wait many years before ever 
receiving any compensation for suffering caused by asbestos exposure.
    H. Medicare subvention is an issue critical to the future funding 
of VA health care programs. Considerable discussion of this issue has 
occurred over the years, with strong resistance coming particularly 
from the House Ways and Means Committee regarding a pilot Medicare 
subvention demonstration project for VA. We trust that legislative 
language can be crafted this year to move this legislation through the 
109th Congress. Authorizing VA to bill Medicare for covered services 
provided to certain veterans seems to be a win-win situation. VA 
benefits from additional revenue to supplement core appropriations. The 
Medicare trust fund benefits at the same time since VA will be 
reimbursed at a discounted rate.
    I. As evidenced by the vital emergency role that the VA played 
during the past hurricane season, VA should have the funding necessary 
to respond in the event of either a natural or terrorist attack. In 
addition, as the Federal Government seeks to strengthen homeland 
security, VA should receive an appropriate share of resources dedicated 
to this purpose. The importance of the VA's capacity to respond with 
medical and human resources in times of national emergency cannot be 
underestimated.
    J. BVA urges Members of the Congress to support passage of Senate 
Concurrent Resolution (S. Con. Res. 71), introduced by Senator Inouye, 
Senator Salazar, and Ranking Member Senator Akaka, it was adopted by 
the House of Representatives in June 2004, (H. Con. Res. 56). The 
resolution failed last year because there was no companion resolution 
on the Senate Transportation Committee. S. Con. Res. 71 states ``that 
it is the sense of the Congress that each State should require any 
candidate for a driver's license candidates to demonstrate, as a 
condition of obtaining a driver's license, an ability to associate the 
use of the white cane and guide dog with visually impaired individuals 
and to exercise great caution when driving in proximity of a 
potentially visually impaired individual.'' We are grateful to Senator 
Akaka and Senator Salazar for introducing this important resolution 
again, and urge Members to co-sponsor this as method of improving 
pedestrian safety. We are pleased that companion H Con. Resolution 235 
was introduced again in the House Transportation Committee and already 
has twelve co-sponsors.
    K. As mentioned previously, aging is the single best predictor of 
blindness or severe visual impairment. Veterans are not the only ones 
who are growing old and losing their sight. BVA encourages Congress to 
enact legislation to fund categorical programs for the professional 
preparation of education and rehabilitation personnel serving people 
who are severely visually impaired and blind. There is a shortage of 
trained professionals in the field of blindness. The shortage may very 
well be further aggravated as a result of the President's fiscal year 
2007 budget request. Contained within the request is a Department of 
Education, Rehabilitation Services Administration (RSA) initiative that 
would cut back on funding support for personnel preparations programs.
    L. The Blinded Veterans Association has many members in Puerto Rico 
who served honorably in the U.S. Armed Services. BVA therefore 
encourages Congress to adopt legislation that would define the 
political status options available to the U.S. citizens of Puerto Rico 
and authorize a plebiscite to provide the opportunity for Puerto Ricans 
to make an informed decision regarding the island's future.
    M. Once again this year, BVA urges this Committee to introduce 
legislation that would amend the Beneficiary Travel Regulation in Title 
38. We believe that the law needs to be changed to allow VA to pay 
travel for catastrophically disabled veterans who are accepted to one 
of the VA special disabilities programs and who are not currently 
eligible for travel benefits. These veterans are already required to 
pay the Social Security Administration co-payment as well as a daily 
per diem rate during the rehabilitation experience. Adding the burden 
of paying their own travel, usually air transportation, serves as a 
strong disincentive for these veterans to take advantage of the world 
class service offered by VA.
    N. BVA absolutely opposes any legislative initiative that would 
change the current Line of Duty standard for determining Service 
Connection to Performance of Duty.
                               conclusion
    Once again, Mr. Chairman, thank you for this opportunity to present 
BVA's legislative priorities for 2006. BVA is extremely proud of our 61 
years of continuous service to blinded veterans and all of the 
accomplishments we have enjoyed. The future strength of our Nation 
depends on the willingness of young men and women to serve in our 
military, and that depends in part on the willingness of our government 
to meet its obligation to them as veterans.
    When BVA representatives meet the young servicemembers from OEF and 
OIF at Military Treatment Facilities, one of the first questions asked 
is the following: ``Is VA going to be able to provide me with the long-
term rehabilitation that I will need to adjust to my blindness?'' We 
would like to ask that question of the members in this room. Again, Mr. 
Chairman, thank you for this opportunity. I will gladly answer any 
questions you or other Members of this Committee may have.

STATEMENT OF DAVID L. MAGIDSON, NATIONAL COMMANDER, JEWISH WAR 
            VETERANS OF THE UNITED STATES OF AMERICA

    Mr. Magidson. If I might, Senators, fellow veterans----
    Chairman Craig. David, please proceed.
    Mr. Magidson. Yes, sir, if I might. Thank you.
    Everyone has talked about specifics and we have specifics 
in the record. I could talk about, I am from Florida and we 
could talk about the VA Hospital in Palm Beach, where we are 
told that the money that is used for capital has to be paid 
into salaries, and they have no money in capital, and this is 
supplemental budget. Or we can be walking around Congress, and 
we bump into the paralyzed veterans and be told that they do 
not have any parking in order to go to the hospital. But we are 
going to be talking in general because I want to talk about who 
we are and why we are here, if I might.
    We are the Jewish War Veterans. We are the oldest active 
veterans' organization in our country, founded in 1896 by 
veterans of the Civil War to put to rest the lie that Jews did 
not fight in the conflagration. We did, by the thousands, and 
we still do.
    Let me, if I might, read a letter that we received from a 
young girl from Arizona. We are all throughout the United 
States. And she says, to get the tenor of why we are here:
    ``I am a student in the 8th grade at Copper Ridge Middle 
School in Scottsdale, Arizona. All of the social studies 
classes are meant to write a letter to any veterans' 
organization of our choice, and I selected the Jewish War 
Veterans. I am Jewish.''
    ``I never really thought about people who fought in wars, 
and never thought that people would have fought and died to 
protect the U.S.A. You made me begin to think about how lucky 
we are to live in America and have all the freedom that we have 
today.''
    ``I also didn't realize how many American soldiers have 
died in so many wars over the past 100 years, not only fighting 
for our freedom but for the freedom of other countries, too. 
Because I am Jewish, I know that if Hitler hadn't been beaten 
in World War II, then maybe I wouldn't be here today, or my 
parents or my grandparents. I see things on TV about what 
happened to so many people during Hitler's rule, and it really 
makes me sad.''
    ``I would like to thank you and all of the veterans for 
fighting so bravely for our country and keeping us free and 
safe. I hope the government takes care of all of the veterans 
and everybody remembers to always keep thanking you for 
everything you have done.''
    ``I hope I never have to fight in a war, but if I do, I 
hope I can be as brave as all of you were. Please read this 
letter to all of the Jewish veterans and all veterans, so that 
they know how much I want to thank them for keeping me safe.''
    I think that is what we are about.
    Let me just get a little personal at this time. My son, 
Captain Ben Magidson, just returned from Afghanistan after 1 
year, and three-and-a-half years of active duty in the United 
States Army. He was at Scofield Barracks, and then with the 
25th ID over at Afghanistan.
    He was taking something out of his duffle bag and I asked 
him what it was. He said it was a Bronze Star. I swelled with 
pride, but then I realized what sadness and pain come with it. 
Ben to me is a representative of the hundreds and thousands of 
our men and women, parents and children, who went into combat 
and are now coming home.
    To the Administration and Congress people who sent them in 
harm's way, never leave a veteran behind. And to the veterans' 
organizations such as ours, we have the eternal responsibility 
of assuring that no veteran will be left behind. For health 
care, for education, for housing, please never leave a veteran 
behind, and keep it with you when you consider what we should 
do, because we agree with everything that is being said 
specifically.
    And thank you very much, Mr. Chairman, sir.
    [The prepared statement of Mr. Magidson follows:]
Prepared Statement of David L. Magidson, National Commander, Jewish War 
                Veterans of the United States of America
    Chairman Craig, Ranking Member Akaka, Members of the Senate 
Committee on Veteran Affairs, and Members of the House Committee on 
Veterans Affairs who are present, my fellow veterans and friends, I am 
David L. Magidson, the National Commander of the Jewish War Veterans of 
the U.S.A. (JWV). JWV is Congressionally Chartered and also provides 
counseling and assistance to members encountering problems dealing with 
the Department of Defense (DoD), the Department of Veterans Affairs 
(VA), and other government agencies. JWV is an active participant in 
The Military Coalition, a group of over 30 military associations and 
veterans' organizations representing over five million active duty, 
reserve and retired uniformed service personnel and veterans on Capitol 
Hill.
    I am accompanied today by the Chairman of our Coordinating 
Committee, PNC Robert M. Zweiman, who is also JWV's International 
Liaison, the President of our Ladies Auxiliary, Arlene Kaplan, the 
President of our National Museum of American Jewish Military History, 
PNC Jack Berman, Chairman of our National Executive Committee, PNC 
David Hymes and the Director of our National Service Office Program, 
PDC Ralph Bell, and our National Executive Director, Colonel Herb 
Rosenbleeth. In the audience today are those JWV members who are here 
to meet with their Senators and Representatives as part of JWV's 
Capitol Hill Action Day.
    Members of the committee, it was a singular honor for me to present 
the JWV Medal of Merit to Senator Patty Murray (WA), at our 
Congressional Reception yesterday evening, in recognition of her truly 
outstanding work for America's veterans. It was equally rewarding to 
JWV to have so many of you participate with us!
    Mr. Chairman, next week, on March 15th to be exact, we at JWV will 
celebrate JWV's 110th birthday. For these 110 years, JWV has advocated 
a strong national defense and a just and fair recognition and 
compensation for veterans. The Jewish War Veterans of the USA prides 
itself in being in the forefront among our Nation's civic and veterans 
groups in supporting the well-earned rights of veterans, in promoting 
American democratic principles, in defending universal Jewish causes 
and in vigorously opposing bigotry, anti-Semitism and terrorism both 
here and abroad. Today, even more than ever before, we stand for these 
principles. The Jewish War Veterans of the U.S.A. represents a proud 
tradition of patriotism and service to the United States of America.
    As the National Commander of the Jewish War Veterans of the USA 
(JWV), I thank you for the opportunity to present the views of our 
100,000 members on issues under the jurisdiction of your committee. At 
the conclusion of JWV's 110th National Convention in San Diego, CA our 
convention delegates adopted our resolutions for the 109th Congress. 
These mandates establish the legislative agenda for JWV during my year 
as National Commander.
    JWV believes Congress has a unique obligation to ensure that 
veterans' benefits are regularly reviewed and improved to keep pace 
with the needs of all veterans in a changing social and economic 
environment. JWV salutes the Chairmen and Members of both the Senate 
and the House Veterans' Affairs Committee for the landmark veterans' 
legislation enacted over the past several years. Eligibility 
improvement, patient enrollment, long-term care, access to emergency 
care, enhanced VA/DoD sharing, improved preference rights of veterans 
in the Federal Government and other initiatives recognize the debt this 
country owes to those who have faithfully served our country.
    We must improve access to veterans' health care, increase 
timeliness in the benefit claims process, and enhance access to 
national cemeteries and to state cemeteries for all veterans.
                         no government funding
    The Jewish War Veterans of the USA, Inc. does not receive any 
grants or contracts from the Federal Government.
                           va budget for 2007
    The Administration's budget submission calls for a veterans' health 
care budget of $34.3 billion, ``an increase of $3.5 billion more than 
2006'', according to a VA release on the budget. While this seems like 
a big increase, this budget proposal does not request enough to meet 
the Federal Government's obligation to veterans. In fact, this budget 
will force increasing numbers of veterans out of the health care 
system. Both the Administration and the VA have repeatedly 
underestimated the number and severity of wounded servicemembers 
returning from Iraq and Afghanistan, thereby repeatedly requiring 
supplemental appropriation requests.
    The proposed VA budget for 2007 is another attempt to drive down 
demand, to further drive Priority 7 and 8 veterans out of the system. 
This is in addition to the more than a quarter of a million veterans 
who have already been shut out of the VA health care system. Denying 
earned benefits to eligible veterans is no way to solve the problems 
resulting from an inadequate budget.
                      mandatory funding for the va
    JWV's major legislative goal is the passage of Mandatory Funding 
for the VA, thus providing an assured adequate level of funding for 
veterans' health care. This legislation would require the Secretary of 
the Treasury to make available to the Secretary of Veteran Affairs for 
programs, functions, and activities of the Veterans Health 
Administration for fiscal year 2007, 130 percent of the amount 
obligated during fiscal year 2005. The current bill numbers are S. 331 
and H.R. 515.
    The Jewish War Veterans of the USA strongly endorses and supports 
the efforts of Senator Johnson and Congressman Evans and other Members 
of Congress to provide required funding for veterans' health needs 
through these measures.
    The Jewish War Veterans of the USA agrees in the strongest possible 
terms with these friends of veterans' contention that ``We can no 
longer allow the VA to be hostage to the Administration's misplaced 
priorities and the follies of the Congressional budget process. This 
bill would place veterans' health care on par with all major Federal 
health care programs by determining resources based on programmatic 
need rather than politics and budgetary gimmicks.''
    Under the current system, funding for veterans' health care is 
subject to reduction at any time due to political and programmatic 
pressures to take money earmarked for the care of those who have served 
the country, many on the field of battle, and divert those funds to 
other programs. In this way, the most deserving among us, those who 
have fought to defend our basic freedoms, are often denied the care 
which they have earned, which they have been promised, and which they 
deserve.
    The lack of prompt access to the care they deserve and have earned 
is not acceptable. As the wounded come home in ever-increasing numbers 
from the battlefields of Iraq and Afghanistan, the problem will only 
worsen in the years to come. Therefore, it is imperative that all those 
who honor our brave fighting men and women come together to support 
Senator Tim Johnson's and Rep. Lane Evans' efforts.
    It is not enough to mouth support for our current troops and those 
who fought the brave fight before them. We must all support mandatory 
funding to ensure their future needs as set out in the legislation 
proposed by our friends. The Jewish War Veterans of the USA urges 
everyone to contact his/her senators and representatives to urge their 
support for these bills. Our country owes health care to our veterans 
who must not be dependent on the whims of the political process to get 
the benefits they have earned.
                               user fees
    The Administration's budget calls for increasing veterans' 
prescription co-payments from $8.00 to $15.00 and proposes an annual 
$250.00 VA health care user fee for Priority Groups 7 and 8. There are 
many veterans in these groups who have several prescriptions, sometimes 
ten or more, each month. Doubling their co-payments is too much for 
many of them to handle.
    JWV adamantly opposes these proposals!
                     post-traumatic stress disorder
    JWV is also focusing on legislation to improve programs for the 
identification and treatment of post-deployment mental health 
conditions, including post-traumatic stress disorder, in veterans and 
members of the Armed Forces. The current bill number is H.R. 1588, 
introduced by Congressman Evans.
                         the military coalition
    JWV continues to be a proud member and active participant of the 
Military Coalition (TMC). PNC Bob Zweiman, JWV's Chairman of the 
Coordinating Committee, serves on the Board of Directors of the 
Coalition and our National Executive Director, Colonel Herb 
Rosenbleeth, USA (Ret), serves as JWV's Washington representative and 
as Co-Chair of the Coalition Membership and Nominations Committee.
    JWV requests that the House and Senate Committees on Veterans' 
Affairs do everything possible to fulfill the legislative priorities of 
the Military Coalition which are applicable to your committees. These 
positions are well thought out and are clearly in the best interests of 
our military personnel, our veterans and our Nation's security.
                       priority group 8 veterans
    Since January 17, 2003, access to Department of Veterans Affairs 
(VA) care for new Priority 8 veterans has been prohibited. More than 
260,000 veterans have applied to receive VA health care but have been 
turned away because of the cost-cutting decision to limit veterans' 
access to VA hospitals, clinics and medications. Citing the words of 
our National Commander, David L. Magidson: ``There is no reason for the 
VA to deny health care to veterans who have served our country 
honorably. We should never leave any veteran behind.''
               support for the national guard and reserve
    The Jewish War Veterans of the USA recognizes the National Guard 
and Reserve as being essential to the strength of our Nation and the 
well-being of our communities.
    In the highest American tradition, the patriotic men and women of 
the National Guard and Reserve serve voluntarily in an honorable and 
vital profession. They train to respond to their community and their 
country in time of need. They deserve the support of every segment of 
our society.
    If these volunteer forces are to continue to serve our Nation, 
increased public understanding is required of the essential role of the 
National Guard and Reserve in preserving our national security. Their 
members must have the cooperation of all American employers in 
encouraging employee participation in National Guard and Reserve 
training programs.
    The Jewish War Veterans of the USA encourages all employers to 
pledge that:
    1. Employment will not be denied because of service in the National 
Guard or Reserve;
    2. Employee job and career opportunities will not be limited or 
reduced because of service in the National Guard or Reserve;
    3. Employees will be granted leaves of absence for military 
training in the National Guard or Reserve, consistent with existing 
laws, without sacrifice of vacation;
    4. Employers must recognize that their employees' rights must be 
protected when their workers are activated in the war against 
terrorism, regardless of whether that activation was for State or 
Federal service; and
    5. Leading by example, the Jewish War Veterans of the USA, as an 
employer, has signed a pledge under the auspices of the National 
Committee for the Employer Support of the Guard and Reserve, to be a 
good employer. We ask our members who are employers to do so as well.
    The Jewish War Veterans of the USA demands that all members of the 
National Guard and Reserves be treated as equal partners in America's 
total force structure entitled to all of the rights and benefits 
afforded to those in the active components and that they be equipped 
with all assets necessary to perform their mission.
                          welcome home gi bill
    The Jewish War Veterans of the USA enthusiastically supports a new 
veterans' rights bill now known as the ``Welcome Home GI Bill'' as 
``must'' legislation currently pending before the Congress. Our Nation 
owes a debt of gratitude to all who are currently serving as they 
protect our Nation from the ravages of terrorism. This bill will go far 
in paying this Nation's debt to our brave men and women in uniform.
    The bill should provide benefits to anyone who has served at least 
six consecutive months in a combat zone since 9/11 or was injured as a 
result of his/her service regardless of duty station. This bill must 
address the areas of improved health care, education, job-training 
assistance and housing, and include a tax-free $5,000 down payment on a 
home in addition to other existing VA home loan guarantees.
    One of the most important aspects of any bill is that it ensures 
benefits for all who have served, not just for members of the active 
duty component. Under the current benefits structure, those benefits 
due to Reserve and National Guard troops are far fewer than those given 
to members of the active duty components. This disparity has resulted 
in a system wherein the National Guard and Reserve troops have come to 
be treated as second-class citizens even as they are putting their 
lives on the line to defend our country in the same way as the active 
duty personnel.
    The Jewish War Veterans of the USA urges the Congress to pass 
appropriate legislation immediately.
        presumption of service-connection for gulf war veterans
    A well known study conducted in the state of Kansas on the Gulf War 
veterans found that certain medical conditions exist among Gulf War 
veterans that do not exist in non-Gulf War veterans.
    The National Gulf War Resource Center can substantiate and confirm 
that these medical conditions exist among Gulf War veterans. The U.S. 
Army Medical Research Institute of Chemical Defense also conducted 
studies that support the premise that low-level Sarin exposure causes 
long-term health effects. The studies reveal abnormal changes in the 
brain as well as suppression of the immune system in laboratory 
testing. The Government Accountability Office has estimated that as 
many as 35,000 U.S. military personnel may have been exposed to nerve 
agents released from the demolition of an Iraqi munitions storage 
complex at Khamisiyah.
    The Jewish War Veterans of the USA urges that the U.S. Department 
of Veterans Affairs recognize the following medical conditions as a 
presumptively service-connected for Gulf War veterans: Skin 
Condition(s) other than Skin Cancer, Stomach or Intestinal 
Condition(s), Depression, Arthritis, Migraine Headaches, Bronchitis, 
Asthma, Heart Diseases, Lung Diseases, Thyroid Condition(s), Seizures, 
Disease of the Nervous System, and any other related conditions.
    The Jewish War Veterans of the USA also requests that the Secretary 
of Veterans Affairs add the aforementioned illnesses to the list of 
presumptions of service-connection for Gulf War veterans under P.L. 
103-446.
                         women in the military
    Sexual assaults have not been eliminated in Department of Defense 
facilities. These assaults have taken place at such bases as the Air 
Force Academy in Colorado Springs and have become only too common in 
war zones such as Afghanistan and Iraq.
    The military fails to recognize that women have become a major 
source of military strength at the war fronts and make up a 
considerable percent of students at the academies. As proof of the 
destructive effects of assaults we now know that over 40 percent of our 
homeless women veterans were victims of such assaults.
    Women in the Military are giving their lives for their country just 
as well as are men. By June, 2005 there were over 40 women's deaths 
reported in Iraq and Afghanistan and the number is growing rapidly.
    The Jewish War Veterans of the USA acknowledges that women in the 
military are frequently not given fair treatment at the resulting 
hearings. The Jewish War Veterans of the USA demands that adequate 
measures be taken to give women a proper degree of respect and when 
these measures are violated that a fair and just hearing be convened 
without any derogatory fanfare surrounding such hearings. The military 
must take measures to ensure that women are not intimidated so that 
they hide these assaults.
              meeting the special needs of women veterans
    The Jewish War Veterans of the USA (JWV) recognizes that there are 
service-related problems unique to the woman veteran which continues to 
be inadequately met by the Department of Veteran Affairs. JWV supports 
the allocation of VA resources to fully fund women's centers at all 
major VA medical facilities and provide specially trained medical 
professionals at each veteran's outreach clinic. The services required 
include access to gynecologists, mammograms, mental health and rape 
counselors, as well as PTSD and Agent Orange screening.
                          state veterans homes
    State veteran homes were founded for Civil War veterans in the late 
1800s and have served veterans for over 100 years. Under the provision 
of Title 38, United States Code, the United States Department of 
Veterans Affairs (VA) is authorized to make aid payments to states 
maintaining state veteran homes subject to the provision of 38 CFR 
18.13, Part 3, Section 51.40 (1).
    Currently there are 119 state veteran homes operating in a total of 
48 states and territories, providing hospital, skilled nursing, skilled 
rehabilitation, long-term care, Alzheimer's care, domiciliary care, 
respite care, and end of life care to veterans and their families.
    The VA promotes the care and treatment of veterans in state veteran 
homes as one means to attain the goal of developing and maintaining the 
highest possible quality of patient care for eligible veterans. The VA 
can increase its share of state home per diem to 50 percent of the 
national average cost of providing care in a state veteran home.
    Title 38, United States Code, authorizes the State Home 
Construction Grant Program which is funded by VA at 65 percent of total 
costs for construction of new state veteran home and renovation of 
existing facilities. The VA has not even kept pace with states' grant 
applications for construction of new state veteran homes and renovation 
projects, which VA itself considers to be top priority projects.
    Furthermore, Title 38, United States Code, authorizes VA to make 
per diem payments for veterans residing in state veteran homes, and the 
State Veteran Home Program is recognized as a low cost alternative 
among all nursing care alternatives available to VA.
    Recognizing the growing long-term health care needs of older 
veterans, the State Veterans Home Program must continue to be a vital 
health care provider and a low cost but high quality alternative for 
veterans needing long-term nursing care.
    The Jewish War Veterans of the USA fully supports the legislative 
objectives of the National Association of State Veteran Homes (NASVH) 
that the States receive from VA a per diem payment for veteran 
residents that equals 50 percent of the national average cost of 
providing care in a state veteran home.
    The Jewish War Veterans of the USA urges the Congress of the United 
States to fully fund state veterans home construction grant priority 
one projects for fiscal year 2006 and we urge the President and 
Congress to pledge their full support to the State Veteran Home Program 
as it is the most cost-effective nursing care alternative available to 
VA.
                         the independent budget
    Jewish War Veterans is an endorser of the Independent Budget and we 
want to continue to emphasize the following points from the writers of 
this document:
    <bullet> Veterans must not have to wait for benefits to which they 
are entitled.
    <bullet> Veterans must be ensured access to high-quality medical 
care.
    <bullet> Veterans must be guaranteed access to the full continuum 
of health-care services, including long-term care.
    <bullet> Veterans must be assured burial in state or national 
cemeteries in every state.
    <bullet> Specialized care must remain the focus of the Department 
of Veterans Affairs (VA) medical system.
    <bullet> VA's mission to support the military medical system in 
time of war or national emergency is essential to the Nation's 
security.
    <bullet> VA's mission to conduct medical and prosthetics research 
in areas of veterans' special needs is critical to the integrity of the 
veteran's health-care system and to the advancement of American 
medicine.
    <bullet> VA's mission to support health professional education is 
vital to the health of all Americans.
                             back-up to dod
    VA Hospitals must be adequately funded, staffed and equipped to 
perform their vital role as this Nation's only back-up for DoD medical 
facilities. U.S. military personnel could possibly suffer casualties 
exceeding the capacity of the combined military medical treatment 
facilities.
    In such a case, the VA would be vital to the Nation. JWV strongly 
urges the Congress to fund the VA to handle this potential workload.
                           homeland security
    In addition to being the back-up for DoD, VA medical facilities are 
the Nation's primary medical resource for Homeland Security. Should 
there be another catastrophic terrorist attack, especially in more than 
one location as occurred on 9/11, the VA would be utilized by the 
Department of Homeland Security.
    Already, VA hospitals are preparing to handle mass casualties as 
well as victims of chemical, biological or radiological attack. JWV 
urges the Congress to fully recognize this mission of the VA and to 
fund the VA accordingly.
                     veterans health administration
    With young American servicemembers continuing to answer the 
Nation's call to arms in every corner of the globe, we must now, more 
than ever, work together to honor their sacrifices. Those men and women 
who return from battle with career ending injuries and life changing 
memories will turn to VA for their health care; health care they have 
earned through their service to this country. VA must be funded at 
levels that will ensure that all enrolled eligible veterans receive 
quality health care in a timely manner.
    Today, there are nearly 26 million veterans. As more veterans 
choose to use VA as their primary health care provider (over 8 million 
veterans enrolled or waiting to enroll), the strain on the system 
continues to grow. JWV fully supported the enactment of Public Law 
(P.L.) 104-262, the Veteran's Healthcare Eligibility Reform Act that 
established an enrollment system and uniform benefits package in the VA 
health care system. All eligible veterans should again be entitled to 
enroll. Veterans recognize that VHA provides affordable quality care 
that they cannot receive anywhere else.
      third party reimbursement and medical care collections funds
    Many veterans, especially those in Priority Groups 7 and 8, have 
private health insurance through employment and many of those veterans 
would choose VA as their primary health care provider were they able to 
do so. VHA is now authorized to bill most fee-for-service and point-of-
service insurance carriers, such as Blue Cross/Blue Shield. Not so with 
Health Maintenance Organizations (HMOs) and Preferred Provider 
Organizations (PPOs). These payers simply reject VHA claims for 
reimbursement as ``out of network''. If these providers are Federal 
contractors, they should not be allowed to reject VA care as part of 
their network.
    As do all working citizens, veterans pay into the Medicare system 
without choice. A portion of each earned dollar is allocated to the 
Medicare Trust Fund and although veterans must pay into the Medicare 
system they cannot use their Medicare benefits at any VA health care 
facility. VA cannot bill Medicare for the treatment of Medicare 
eligible veterans' nonservice-connected medical conditions. JWV does 
not agree with this policy and supports Medicare reimbursement for VHA 
for the treatment of nonservice-connected medical conditions of 
enrolled Medicare-eligible veterans. As a Medicare provider, VHA would 
be authorized to bill and collect allowable third-party reimbursements 
from the Medicare Trust Fund for the treatment of nonservice-connected 
medical conditions of enrolled Medicare-eligible veterans.
                             long-term care
    JWV believes that VA should take its responsibility to America's 
aging veterans seriously and provide the care mandated by Congress. 
Congress should do its part and provide adequate funding to VA to 
implement its mandates.
                          asbestos trust fund
    The Jewish War Veterans of the USA supports the establishment of a 
Trust Fund that would include veterans, their dependents and survivors 
which will ensure that claimants are adequately compensated for the 
illnesses and deaths arising out of their exposure to asbestos. 
Moreover, we believe it is only appropriate that any payments received 
from such Fund be in addition to and not offset by any compensation 
received from the Department of Veteran Affairs for service-connected 
disability.
    JWV supports the Fairness in Asbestos Injury Resolution (FAIR ACT) 
(S. 852) that will establish a Trust Fund for victims, including 
veterans, who were exposed to asbestos during their military service.
    The FAIR Act offers sick veterans a way to receive the compensation 
they deserve. Presently, it is difficult for veterans to turn to the 
courts for help with their asbestos related medical costs. Veterans are 
barred by law from suing their employer (the Federal Government) for 
compensation. By taking asbestos claims out of the court system, the 
FAIR Act will ensure veterans will have a speedy and just avenue for 
receiving compensation.
                    senate action on flag amendment
    Mr. Chairman, JWV strongly supports the passage of the Flag 
Amendment, Senate Joint Resolution [S.J. Res.] 12, which is now only 
one vote away from approval.
    JWV asks those in the Senate who have not yet endorsed the 
Amendment protecting our flag to do so immediately! Let's move the 
amendment to the states for ratification!
                    veterans benefits administration
    The Department of Veterans Affairs has a statutory responsibility 
to ensure the welfare of the Nation's veterans, their families, and 
survivors. Each year, the 58 regional offices of the Veterans Benefits 
Administration (VBA) receive over 100,000 new and reopened benefits 
claims. A majority of these claims involve multiple issues that are 
legally and medically complex and time consuming to adjudicate. Whether 
a case is complex or simple, these offices are expected to develop and 
adjudicate veterans' and survivors' claims in a fair, legally proper, 
and timely manner.
    VBA has, over the last 3 years, begun aligning its policies and 
procedures and has directed most of the regional offices' time and 
effort toward reducing claims processing time and reducing the backlog 
of pending claims. Achievement of former VA Secretary Principi's stated 
goal of 100 days to process a claim, on average, and a backlog of 
250,000 pending claims has been and continues to be VBA's number one 
priority. To fulfill mandated production quotas, regional office 
management and adjudicators have been put in the difficult and 
unenviable position of having to choose between deciding thousands of 
cases as quickly as possible or going through more time consuming steps 
and provide the claimant full due process.
    Unfortunately for thousands of veterans and their families, their 
rights have been subordinated to bureaucratic convenience for the sake 
of an arbitrary administrative goal. This persistent disregard of the 
law prompted thousands to file otherwise unnecessary appeals. Since 
judicial review of veterans' claims was enacted in 1988, of those cases 
appealed to the United States Court of Appeals for Veterans Claims 
(CAVC), the remand rate has been above seventy percent. In a series of 
precedent setting decisions by the CAVC and the United States Court of 
Appeals for the Federal Circuit, the courts have invalidated a number 
of longstanding VA policies and regulations because they were not 
consistent with the statute. In response to these decisions, VBA, less 
than a month ago, provided the regional offices with revised templates 
to conform to the directives of the court.
    These court decisions added thousands of cases to regional office 
pending workloads, since they require the review and reworking of tens 
of thousands of completed and pending claims. As of February 25, 2006, 
the number of pending rating claims was 370,428 with a total of pending 
workload (including non-rating claims) of 580,378. While the number of 
claims has been increasing, the percentage of claims appealed has also 
increased. As of February 25, 2006, the number of appeals pending in 
the regional offices was 152,303. Data on regional office performance 
appear to contradict VBA's description of improvements in service to 
veterans.
    JWV urges the Committee Chairmen and Secretary of the VA to give 
this issue their highest attention possible.
                           concurrent receipt
    JWV greatly appreciates Congress' action to date, but strongly 
urges Congressional leaders and Members to be sensitive to the 
thousands of disabled retirees who are not yet included in concurrent 
receipt legislation enacted over the past years. Specifically, as a 
priority, JWV urges the Congress to expand combat-related special 
compensation to disabled retirees who were not allowed to serve 20 
years solely because of combat-related disabilities.
    Additionally, JWV urges the Congress to ensure the Veterans' 
Disability Benefits Commission protects the principles guiding the DoD 
disability retirement program and VA disability compensation system.
    JWV applauds the Congress for all of the work that resulted in the 
landmark provisions in the fiscal year 2004 National Defense 
Authorization Act that expand combat related special compensation to 
all retirees with combat-related disabilities and authorizes--for the 
first time ever--concurrent receipt of retired pay and veterans' 
disability compensation for retirees with disabilities of at least 50 
percent. The fiscal year 2005 National Defense Authorization Act 
provided additional relief to those with disabilities rated at 100 
percent by immediately authorizing these retirees full concurrent 
receipt, effective January 2005. Disabled retirees everywhere are 
extremely grateful for this action to reverse an unfair practice that 
has disadvantaged disabled retirees for over a century.
    While the concurrent receipt provisions enacted by Congress benefit 
tens of thousands of disabled retirees, a greater number are still 
excluded from the same program that eliminated the disability offset 
for those with 50 percent or higher disabilities. The fiscal challenge 
notwithstanding, the principle behind eliminating the disability offset 
for those with disabilities of 50 percent is just as valid for those 
with 40 percent and below, and JWV urges Congress to be sensitive to 
the thousands of disabled retirees who are excluded from current 
provisions.
    As a priority, JWV asks the Congress to consider those who had 
their careers cut short because they became disabled by combat, or 
combat-related events, and were medically retired before they could 
complete their careers. For these retirees, the disability offset still 
exists and it is difficult to explain to a lengthy career 
servicemember, disabled in combat, why his or her service (perhaps as 
much as 19 years) seems to have had no value. JWV urges the Congress to 
expand Combat Related Special Compensation to those medically retirees 
who had less than 20 years of service.
                           filipino veterans
    The Jewish War Veterans fully supports the passage of H.R. 302 and 
S. 146, the ``Filipino Veterans Equity Act'' introduced by Congressmen 
Issa and Filner in the House and Senator Inouye in the Senate. This 
legislation will restore to all Filipino World War II veterans their 
benefits that were rescinded by Congress in 1946.
    It is sixty years since the war in the Pacific ended. Sixty long 
years in which the Filipino World War II veterans and their sons and 
daughters have waited for equity. These are the soldiers who lived in a 
territory of the United States, who were drafted into service by 
President Franklin D. Roosevelt, and who fought along side American 
forces in the titanic battles of World War II--Bataan and Corrigidor. 
Their courage and bravery must be recognized.
    Progress was made in the 108th session of Congress with the passage 
of legislation to improve health care and compensation for Filipino 
World War II veterans living in the United States. The Jewish War 
Veterans applauds this action and urges Congress to pass further 
legislation that lives up to the promises made to Filipino World War II 
veterans.
    Bills introduced in the 108th Congress to grant benefits to 
Filipino World War II veterans were supported by 21 Senators and 207 
Congress Members. The bills in the 109th session are quickly gaining 
co-sponsors. The Jewish War Veterans urges Congress to pass both 
bills--H.R. 302 and S. 146.
                          ex-prisoners of war
    Mr. Chairman, JWV asks the Committees' support for our ex-prisoners 
of war! Illness such as diabetes and osteoporosis should be presumed to 
be service connected for ex-POWs as they are Vietnam Veterans.
    JWV supports the passage of H.R. 1598 and S. 1271 which would 
accomplish the above goals.
                                pow-mias
    There is one issue that has long been the focus of our attention, 
and that is the POW/MIA accounting issue. Initially begun with sole 
focus on those missing and unaccounted for from the Vietnam War, the 
effort has expanded dramatically over the years since President Reagan 
raised the priority, thanks in no small measure to the National League 
of POW/MIA Families, our JWV and other veteran-related NGO's. We in the 
JWV fully support the POW/MIA families who have remained vigilant and 
serve as the conscience of our Nation in this regard.
    We urge Congress to give thoughtful oversight to this issue of 
national concern. Together, we must work to ensure that assets and 
resources needed are in place to account for those who serve--past, 
present and future. Our commitment to the principles of the POW/MIA 
mission is a signal to the world that we, as a Nation stand fully with 
those who are fighting for the cause of freedom and against terrorism 
around the world.
                 national cemetery administration (nca)
    The National Cemetery Administration (NCA) is charged with meeting 
the interment needs of the Nation's veterans and their dependents. 
There are approximately 14,200 acres within established installations 
in NCA. Just over half are undeveloped and, with available gravesites 
in developed acreage, have the potential to provide more than 3.6 
million gravesites. More than 301,050 full-casket gravesites, 58,500 
in-ground gravesites for cremated remains, and 37,900 columbarium 
niches are available in already developed acreage in our 120 national 
cemeteries. JWV commends the NCA in its efforts to meet its 
accessibility goal of 90 percent of all veterans living within 75 miles 
of open national or state Veterans cemeteries.
                               conclusion
    Senator Craig and Senator Akaka, on behalf of the Jewish War 
Veterans of the USA, we sincerely thank you for scheduling our 
presentation at a time when our National Executive Committee members 
will be present.
    At our annual national conventions our members work diligently to 
develop our legislative priorities. Our dedicated resolutions chairman, 
PNC Michael Berman, works hard to develop our resolutions and to bring 
them before our convention delegates. Following further fine-tuning by 
our convention delegates, our resolutions are finalized, and become our 
legislative priorities for the coming year. We thank you for the 
opportunity to present them to you today.

    Chairman Craig. David, thank you very much.
    Now let us turn to Richard Schneider, Executive Officer for 
Governmental Affairs, Non-Commissioned Officers Association.

   STATEMENT OF RICHARD C. SCHNEIDER, EXECUTIVE OFFICER FOR 
  GOVERNMENTAL AFFAIRS, NON-COMMISSIONED OFFICERS ASSOCIATION

    Mr. Schneider. Thank you very much, Chairman Craig, Ranking 
Member Akaka, Members of the Committee. It is a great 
opportunity to be here, and I want to say something about this 
Committee. You have made a difference with your leadership in 
representing veterans since you have come into office and made 
this a responsible, responsive Committee to the veterans of 
America, and we thank you for that.
    I will also tell you we don't always agree with everything 
that is going on, and that is our job, to come here and tell 
you that. We don't agree that the budget is adequate. We don't 
agree it was adequate in 2006. We don't believe the proposed 
budget is adequate in 2007. And we question the management 
efficiencies that are part of that budget, and we question the 
number, and we articulate that it is probably going to be low, 
and that is a tragedy.
    Mr. Salazar mentioned that there is going to be a planning 
of the budget, and it is going to start to spiral down after 
2008. Well, I will tell you something, sir. That budget cannot 
go down after 2008 because medical costs are going up, and you 
still have all of these veterans behind me and those coming 
today who you have to take care of. So we need to look at that 
budget.
    And I will tell you something, sir. We are not that old 
that we are forgetting who we are and what we are, and by that 
I mean it was only two or three years ago when a former 
Secretary of VA told us, ``You will have Medicare Plus Choice 
to take care of the sevens and eights, and we are working 
that.'' Well, that has gone down the tube somewhere, and we 
would like to see it resurrected, and we would like to see this 
Committee ask the question, ``What about Medicare Plus Choice 
that you said was coming?''
    We would also like to know, what about TRICARE 
reimbursement? Why aren't we collecting more money from TRICARE 
and the DOD for the services that are being provided? Maybe 
there are ways to bring additional money into the VA without 
trying to put co-payments on the backs of the veterans who 
served America.
    In that regard, sir, I would tell you we met with the 
Secretary of VA and we met with the Secretary of Health and 
Human Services less than 10 days ago, and we asked the question 
about Medicare Plus Choice. The Secretary of Health and Human 
Services said, ``That is not our job. That is Congress's job. 
Go ask them.'' And so we are here today and we are asking that 
question. We would like you to tell us.
    But you know we are here for a number of reasons, and some 
of the reasons we are here for is to talk about the issues that 
most concern us. Mr. Akaka addressed the GI Bill and what it 
meant for him to continue in his life and career.
    Well, we recognize as an enlisted organization of non-
commissioned petty officers and all enlisted grades of the 
active, the Guard, and the Reserve, that we have on active duty 
today, active duty people who have served continuously from the 
era of the VEEP educational program, who were counseled not to 
sign up for VEEP and, as a result of not signing up, have never 
become eligible for the Montgomery GI Bill, and we believe that 
is a tragedy. We would like to see an open season for VEEP 
people in the service who would have been eligible, who either 
established or didn't establish an account, to have an 
opportunity to sign up for the Montgomery GI Bill.
    We would also like to look at the Armed Services side and 
look at the Guard and Reservists who come into the service, who 
go and are deployed, come back with a tremendous benefit, but 
if they opt to go after the education, they leave the benefit 
on the table. They don't carry it with them. It is not 
portable. It terminates when they terminate their Reserve and 
Guard commitment, and by God, we think that is wrong. We think 
they ought to have the same opportunity that Mr. Akaka and all 
of us had with our GI Bill.
    We would also like to recognize and speak for a moment 
about DIC and SBP offset. By God, there shouldn't be an offset. 
That is a tragedy.
    If one of these people who took SBP while they were on 
active duty and later qualify for DIC, either lose their SBP 
benefit--they don't lose it. Now, get this technical 
apportionment. OK? If their DIC payment is higher than their 
SBP, they get a refund of all of the premiums that they paid in 
for the benefit that they wanted to have for their families. A 
refund.
    That is not what they asked for. They paid in. They wanted 
a payment from their SBP account for their survivors. DIC only 
happened because something that happened to them in the 
military service from which they would later die qualified them 
for a DIC payment. And if the DIC payment is lower than the 
SBP, then they get the difference from SBP and they get a 
refund of some of the premiums that they paid.
    We believe that is wrong. They ought to receive SBP and 
they ought to receive their DIC benefit, and we argue that 
position, and we bring it to your attention today.
    We can go on, and I have got a red light. I hate red 
lights. I tend to ignore them except when I am driving.
    Mr. Randles. I am not yielding any of my time.
    Mr. Schneider. All right, don't yield any of your time.
    But I would go back and I would say, sir, we appreciate who 
you people are. We appreciate what you do. We have a number of 
concerns, and I would like to just mention two, and then I will 
stop.
    The Asbestos Trust Fund, we want that passed. We want the 
people who served not only years ago, but who have been exposed 
to asbestos right in that five-sided building across town, and 
in Iraq in the past year, to have the opportunities of that 
Asbestos Trust Fund if they need it. We want that done.
    The other thing we want done is, we don't want anyone--and 
I almost said the nasty word--pulling some horse pooky trick 
and doing something that would change VA's ability to buy 
discounted drugs, and move them up in their purchase price of 
drugs for the Department of Veterans Affairs and for all 
veterans by bringing the opportunity to Medicare-eligible.
    We have nothing against Medicare-eligible, but we don't 
want the Federal Supply Schedule reviewed with the impact being 
we are going to change the Federal Supply Schedule and adjust 
the cost, which is then going to increase the co-payments all 
the way around. And in case you didn't get my earlier point, no 
co-payments.
    [The prepared statement of Mr. Schneider follows:]
   Prepared Statement of Richard C. Schneider, Executive Officer for 
      Governmental Affairs, Non-Commissioned Officers Association
    Chairman Craig, Ranking Minority Member Akaka and Members of the 
Senate Committee on Veterans Affairs, the Non-Commissioned Officers 
Association of the USA (NCOA) is very appreciative for the opportunity 
to formally present its 2006 Legislative Agenda to the Senate Committee 
on Veterans Affairs. The fact that the leadership of this Committee 
determined on short notice to provide this hearing opportunity when the 
concept of an historical Joint Hearing was abandoned is in the judgment 
of NCOA indicative of your support of America's veterans, their 
families and survivors.
    I am Gene Overstreet, 12th Sergeant Major of the United States 
Marine Corps (Retired), President and Chief Executive Officer of the 
Non-Commissioned Officers Association. I am joined today by CMSgt 
Richard C. Schneider, USAF (Retired), NCOA Executive Director of 
Government Affairs; and MSG Matthew H. Dailey, USA (Retired), Military 
Affairs Associate of the Association's National Capital Office.
                              introduction
    NCOA is privileged to represent active duty enlisted servicemembers 
of all military services, the United States Coast Guard, associated 
Guard and Reserve Forces as well as veterans of all components. We are 
in 2006 ever cognizant and vigilant of the sacrifices associated with 
duty in the Uniformed Services of the United States of America during 
the Global War on Terrorism.
    NCOA representation of enlisted members from all services and 
components makes it unique and enables it to provide a full and 
comprehensive perspective on active duty, veteran and survivor issues 
for the Administration and this Congress.
    The Association provides for these members and their families 
through every stage of their military career from enlistment to 
eventual separation, retirement and on to their final military honors 
rendered on behalf of a grateful Nation. The Association defines well 
its membership service as cradle, or enlistment, to grave and than 
continues to provide services to the veterans surviving family members.
    NCOA is guided in its legislative role by resolutions adopted 
annually by its worldwide membership. We take those resolutions very 
seriously recognizing vital responsibilities to be in the forefront of 
issues impacting the large numbers of active duty, Guard and Reserve 
members currently in harm's way deployed around the world in America's 
War against Terrorism. In military parlance, this non-commissioned 
officer leadership team is standing on point here on Capitol Hill to 
articulate entitlement issues, protecting benefits as necessary, 
extending value to those benefits that have failed to keep pace in a 
21st Century America, and last, to achieve new entitlements to meet the 
needs of today's warriors and their family members. The promises of a 
grateful Nation must be honored and held sacred by its institutions for 
those who risk their very lives fulfilling their commitment to America.
    The words of the Oath of Military Enlistment are simple but provide 
the very essence of service for every military man and woman by their 
ultimate declaration. These twelve words are the same for all who 
answer the Clarion Call to Duty:
    ``. . . to support and defend the Constitution of the United States 
of America.''
    Please note that in the Enlistment oath there is no qualifying 
comment or words such as funds and resources permitting. There is the 
belief by those who serve that they will have the finest war fighting 
equipment, support services, health care, and all necessary 
institutional support while on active duty to include active and 
veteran health care support and should they fall in the line of duty 
the institutional support of a grateful Nation for their survivors. 
Granted, the War on Terrorism is somewhat different than a conventional 
war, but the words finest war fighting equipment has certainly been 
questioned and challenged not only by deployed personnel but by this 
Congress on the issues of personnel body armor and adequately armored 
vehicles.
    We are also pleased for the spaciousness of this meeting assembly 
that allows you to look into the faces of active duty members and 
veterans who served in every national conflict and attend this hearing 
to support their organization's comments on veteran needs presented in 
their Legislative recommendations. There is no doubt that in this room 
there are those who could speak of their own personal experiences and 
question the adequacy and timeliness of benefit claim processing, 
challenge whether or not the discretionary VA health budget is adequate 
based on their access to needed specialized health care services or 
just plain primary care clinic appointments. I am humbled at the 
opportunity to raise my voice on their behalf and like you, I am so 
very proud of each man and woman who has worn a service uniform of this 
great Nation.
    Military members deployed or stationed around the world today leave 
on the home front their spouses and family members. These marvelous 
military families live with not only the heartbreak and frustration of 
separation but the reality that separation may be compounded by 
sacrifices of overbearing personal consequence. Daily the news media 
brings in real time the sights, sounds and horrors being experienced by 
military members to the living rooms of their spouses and children. 
Soldiers are vividly seen weeping over a dead or wounded comrade and 
are joined countless thousands of miles away by the emotion and tears 
of family and friends who share the wounding or loss of an American 
Patriot.
    The Association makes note that Non-Commissioned Officers 
Association is a member of The Military Coalition, a forum of 
nationally prominent uniformed services and veterans' organizations 
that shares collective views on veteran and active duty issues. The 
Association is also a veteran organizational supporter of the 2007 
Independent Budget.
                        va fiscal appropriations
    The past twelve fiscal years of funding for the programs of the 
Department of Veterans Affairs have been characterized by five (5) 
years where fiscal growth was nearly steady state yielding an increase 
of less that 3 percent. Following those early years were by 6 years 
including the past fiscal year of notable budget growth which while 
significant paled in comparison to the events of a nearly completed 
decade in which the number of veteran users and medical cost increases 
outpaced budget gains.
                     fiscal year 2006 appropriation
    NCOA recognizes that the availability of an adequate annual 
appropriated budget for the Department of Veterans Affairs directly 
impacts VA programs and the legislative priorities approved by 
Congress. It was evident to veteran service organizations that the 
Department's current fiscal year 2006 Budget would be inadequate 
without additional appropriations.
    Today, GAO-06-359R issued on February 1, 2006, Subject: Limited 
Support for VA's Efficiency Savings has brought into serious question 
budget assumptions used by the VA in formulating its Appropriated 
Budget for the past three fiscal years. It appears from this report 
that the documented creative accounting of Management Efficiencies 
totaling billions of dollars used to offset and directly lower the VA 
budget requirement in support of veteran health care in the current 
operating year was flawed. Those same management efficiencies 
contributed to the development of the VA fiscal year 2007 Proposed 
Budget.
                     fiscal year 2007 appropriation
    NCOA supports Mandatory Funding for Veteran Health Care. All 
veterans that Congress approved as eligible and VA approved for health 
care enrollment should be included in the Mandatory Appropriated Budget 
Process.
    The fiscal year 2007 Budget is signaled as representing the largest 
proposed increase in health care appropriation, an increase over fiscal 
year 2006 of $3.5 billion. NCOA reserves comment in lieu of the high 
probability that VA health care may have been inappropriately limited 
by cost efficiencies that masked actual fiscal requirements for health 
care approved for the past year (re: GAO 06-359R).
    The Proposed 2007 Budget Request again advances increased proposed 
pharmacy co-pays and enrollment fees.
NCOA Opposes Increased Co-Pays and Enrollment Fees
    We take exception to those who would comment on how well off 
financially MOST veterans and military retirees are that they could 
well afford the modest increases proposed. We also note that many 
military retirees take reduced Survivor Benefit Program (SBP) premium 
based benefits or fail to enroll in the program for any survivor 
benefits because their retired pay is at that level that their personal 
fiscal reality dictates that every retirement penny is needed just to 
live. That decision to delay the security of their surviving families 
has many of them still at risk today.
    Proposed increase in the existing pharmacy veteran co-payments of 
$8.00 to $15.00 per month.--NCOA recognizes that many aging veterans on 
fixed incomes could easily end up with a pharmacy co-payment costing an 
additional $100.00 or more per month. An increase of just $20.00 per 
month could dramatically negatively impact senior veterans.
    And again a proposed enrollment or user fee of $250.00 for higher 
income Priority Groups 7 and 8.--This Association will continue as in 
the past to articulate that no ``user'' taxes in the form of any 
enrollment fee be required of any veteran.
    The authority for Veterans Health Care provided to returning 
veterans from the war on terrorism for 2 years after their return. One 
use of VHA health services for any reason makes them eligible for 
continued enrollment for VA Health Care. NCOA supports that concept. At 
the same time, NCOA recognizes that veterans from earlier conflicts 
(WWII, Korea, Vietnam) or periods of service prior to the War on 
Terrorism cannot easily be enrolled and based on circumstance may never 
be enrolled unless VA succeeds in its enrollment fee plan or a Medicare 
+ Choice Program for eligible veterans.
VA Medicare Subvention
    A significant number of veterans are eligible for Medicare Health 
Benefits based on credits earned during their years of employment. 
These veterans by law cannot receive Medicare reimbursed health care 
services for nonservice-connected care from the Veterans Health 
Administration.
    <bullet> In 2002, VA proposed a VA Medicare + Choice Plan for 
Medicare-eligible Priority Group 8 Veterans.
    <bullet> NCOA suggests that this Committee request that the 
Secretaries of VA and Health and Human Services resurrect the promised 
envisioned VA Medicare + Choice Plan for eligible Priority Group 7 and 
8 veterans.
Recommendations:
    <bullet> That VA Appropriated Budget requires mandatory, vice 
discretionary, funding for veterans health care programs.
    <bullet> That VHA work to secure and implement VA + Choice Medicare 
health services for Priority 7 and 8 veterans for nonservice-connected 
VA health care.
    <bullet> That VA implements its long-standing initiative to become 
a TRICARE provider eligible for reimbursement for services provided.
                       seamless transition vital
    <bullet> One stop DoD/VA separation physical examination.
    <bullet> VA Benefits determination before discharge.
    <bullet> Detailing of military occupational exposures.
    <bullet> Consistent and equitable medical and physical evaluation 
boards
    <bullet> Implement the Electronic Medical Record for military 
personnel for use by DoD and VA throughout and following the member's 
military service.
    <bullet> ACCESS to VA health care and benefits.
              the transformation of vha remains incomplete
    NCOA has long maintained before this Committee that the 
transformation of VHA remains incomplete as long as Mental Health is 
not fully integrated into its total health delivery system. The 
projected $3.2 billion in the fiscal year 2007 VA Budget for Mental 
health Services will significantly contribute to the NCOA envisioned 
health care transformation within VHA.
    NCOA strongly believes the future of VA Health Care demands the 
dynamic expansion of Mental Health Programs into all primary medical 
care clinics. Recent studies reveal mental health intervention starting 
in the health care clinic can significantly reduce costs associated 
with both medical intervention and use of prescription medications. The 
completed Transformation will ultimately contribute to the direct 
productivity and cost effectiveness of VA. This is the potential margin 
in which the future VA can significantly capitalize on its existing 
fiscal resources while reducing health care costs.
    The Association applauded the VA Mental Health Strategic Plan 
designed to improve mental health services in CBOCs and rebuild 
substance abuse programs with $100 Million authorized in fiscal year 
2005 and all Networks to receive Enhancement Funds in fiscal year 2006. 
Mental Health professionals are transitioning into the CBOCs to provide 
an integrated VA clinic concept, substance abuse (drug and alcohol) 
programs, homeless veterans, rehabilitation programs, and geriatric 
programs.
    These programs will be effective if the mental health resource is a 
full time practitioner in the CBOC and not used as a part time resource 
to provide service at other locations, including other CBOCs, Homeless 
Grant and per Diem Locations, and fill other VA service requirements.
Recommendations
    <bullet> Continue the resource commitment to fund and extend the 
strategic mental health plan by the integration of mental health 
professionals throughout VHA.
    <bullet> Backfill vacancies created by the movement of mental 
health resources to CBOCs.
                       homeless veteran programs
Homeless Grant and Per Diem Programs
    The VA Homeless Grant and Per Diem Program have effectively 
established community based programs to furnish outreach, supportive 
services, and transitional housing to homeless veterans. The program 
provided 2,180 operational community beds in fiscal year 2000 and 
through incremental increases a total of 7,820 beds in fiscal year 
2005. NCOA recognizes the effectiveness of these 400 community based 
programs approved and funded by VA.
    VA has been effective in managing the growth of the HOMELESS Grant 
and Per Diem program to ensure necessary support services are 
available. It is time for the controlled growth to be expanded to 
provide for these veterans. It is readily apparent that the Homeless 
Veteran population now estimated in excess of 180,000 requires a ramp-
up in provider networks and support functions.
Priority for Homeless Veteran Providers in CARES/BRAC Decisions
    The need for Community-Based Provider Support for Homeless Veterans 
is apparent across the Nation as is the number of Federal locations 
with surplus property that could be effectively used by communities to 
develop Homeless Grant and Per Diem facilities. Every effort should be 
made to give Community Homeless Veteran Programs priority in the reuse 
designation of surplus community property. Likewise, these special 
homeless veteran service programs should be given special fiscal 
consideration in reduced lease contracts.
Dental Care for Homeless Veterans
    Dental Care was authorized IAW 38 U.S.C. 2062 for certain homeless 
veterans in approved VA programs. At issue are homeless veterans 
resident at approved community locations across the Nation. Authority 
for dental care lacks necessary funding to make the program a solid 
reality.
Recommendations:
    <bullet> VA increase the annual number of homeless beds available 
through the Community Grant and Per Diem Program over the next 5 years 
to the existing authorization of $200 Million.
    <bullet> That CARES and BRAC decisions on excess Federal property 
give exclusive priority to Community Homeless Veteran Providers and 
that lease contacts be significantly below enhanced rates established 
for the location.
    <bullet> That Home Dental Care programs be funded in the 
Appropriated Budget cycle.
                    veterans benefits administration
Veteran Claim Processing
    NCOA recognizes that current budget programs and number of full 
time employees processing claims within the Veterans Benefits 
Administration is inadequate to the task at hand. The Global War on 
Terrorism and commitment of military forces is substantially 
contributing to an increased workload in new claims. Concurrently, an 
aging veteran population seeks reevaluation of deteriorating service 
connected medical conditions and related secondary health issues that 
further contribute to the claim process workload.
    While significant initiatives have been developed to implement 
improved information technology systems they have neither expedited the 
management of the claim process, increased productivity through 
technology, nor reduced errors through intelligent systems, or provided 
needed time for the quality training of service representatives. A 
recent sampling of responses to inquiries at VA Regional Offices 
resulted in inappropriate responses to benefit eligibility questions 
which could deter a veteran from pursuing a claim.
    NCOA recommends immediate funding be provided to hire, train and 
keep in place sufficient claim representatives to process the growing 
number of claims both backlogged and those just arriving in the system.
    Recommendations:
    <bullet> Accelerate recruitment and training to replace a growing 
retirement eligible workforce.
    <bullet> Develop self-service computerized access to benefit and 
entitlement processes via email where centralized work centers could 
process the inquiries, respond to questions, or secure information for 
continuation of the claim process.
    <bullet> NCOA strongly believes that time needs to be made 
available for both quality training and supervisor review for quality 
control.
    <bullet> VBA should determine the feasibility to have selected 
retired VBA employees return to the workforce for a contract period 
during which time new employees could be effectively trained and 
integrated into claim production centers.
Retention of DIC Benefits after Remarriage
    The 108th Congress authorized Dependency and Indemnity Compensation 
(DIC) widows who remarry after age 57 to retain their DIC benefits. 
This was a major change in policy, which previously did not permit 
reinstatement of any DIC benefit if the DIC widow remarried. It also 
established an arbitrary age of 57 where other similar Federal programs 
allow remarriage at age 55. NCOA urges the Committees to change 
reinstatement of this benefit for a widow(er) who remarries at age 55.
    Recommendations:
    <bullet> That Congress provide authority to permit a DIC widow(er) 
to remarry after the age of 55 (vice 57) and retain DIC status and 
benefits.
Concurrent Receipt of DIC and SBP
    It is time to end the fiscal offset of VA Survivor DIC from the DoD 
Survivor Benefit program. NCOA believes that DIC and SBP entitlements 
are separate and distinct programs. SBP represents an election by the 
servicemember with concurrence by the member's spouse at time of 
retirement for which a monthly premium is paid to provide a spousal 
annuity. The DIC benefit is authorized based on the veteran's death 
from a service-connected disability. Clearly, these two programs SBP 
administered by the Department of Defense and DIC administered by the 
Department of Veterans Affairs are separate and distinct entitlements 
and each should be available without offset. The current offset is 
widely regarded as a widow's tax reducing the military member's elected 
SBP entitlement. NCOA urges the Committee to allow concurrent receipt 
of these distinctly different entitlements.
    Recommendation:
    <bullet> That DIC and SBP entitlements are provided the surviving 
spouse without offset.
Revise DIC Payment Policy
    DIC benefits are paid monthly for the preceding month. If the DIC 
recipient dies at any time in the preceding month, that month's DIC 
payment is recouped by the Department of Veterans Affairs. Example: VA 
recoups the entire payment made for the month in which the recipient 
died regardless of when the recipient died (the 1st day, 15 day or last 
day of the month). VA, if notified of the death promptly, will make a 
reverse electronic debit from the account of the electronic deposit. 
This action has many times resulted in financial hardship caused by 
former recipient's family members using all resources available to make 
funeral and estate arrangements without awareness of the debit that 
occurred. Similarly, written checks received and deposited to the 
deceased member's account will inevitably result in an overpayment 
collection notice. Most DIC recipients and their family members have 
spent a life-time augmenting VA health care and the physical day-to-day 
life style needs of their disabled veteran. Creating a negative 
financial impact on the children and/or estate of a widow(er) of a 
former disabled veteran is in NCOA judgment patently wrong.
    Recommendation:
    <bullet> Allow the family (estate) of a widow(er) to retain the 
entire month's DIC payment in which the recipient's death occurred.
                          educational benefits
Open Enrollment for VEAP-Era Non-Participants
    A significant number of servicemembers who entered the military 
during the Veterans Educational Assistance Program (VEAP) era initially 
declined VEAP enrollment and remain on active duty and have no post-
service educational assistance. The Defense Manpower Data Center 
reports that as of September 2004 that are 61,980 active duty 
servicemembers in the force who declined VEAP upon entering military 
service. They have not been given the same opportunity to enroll in the 
Montgomery GI Bill (MGIB) as other VEAP-era entrants who actually 
enrolled in VEAP.
    The Association recognizes that there have been two opportunities 
for VEAP enrollees to convert to the MGIB; however, there has never 
been an opportunity for those who did not enroll in VEAP to do so. The 
first VEAP conversion program was offered only to those enrolled in 
VEAP with active accounts of at least $1.00. This conversion was 
conducted from October 1996 through October 1997 and yielded 
approximately 30,000 enrollees. A second VEAP conversion was authorized 
for those enrolled in VEAP with zero-balance accounts from October 2000 
to November 2001. 2,698 (2 percent) of the 108,792 eligible actually 
enrolled in the MGIB. With such historically modest conversion numbers, 
it is highly unlikely that an open-enrollment opportunity for this 
group of career servicemembers would require more than a modest 
projected increase in the MGIB fund. With the Nation at war, these 
future veterans should be given the same opportunity to enroll (or 
decline) the MGIB as all other servicemembers.
    Recommendation:
    <bullet> That a one-time MGIB open-enrollment opportunity be 
authorized for all servicemembers to include VEAP-era non-participants.
Removal of MGIB Delimiting Date
    Many active duty members separate or retire from the military and 
because of financial circumstances and need for employment to support 
their families never use their Montgomery GI Bill entitlement. Their 
education entitlement expires 10 years following separation from the 
military. Members contribute $1,200 to be eligible for the MGIB. Many 
of these veterans are only able to pursue educational programs or 
special classes later in life when their own children are grown and 
independent of parental financial support.
    Recommendations:
    <bullet> That all military retirees have utilization of their MGIB 
entitlement to a delimiting date equal to 10 years after separation 
from service, or if higher, the number of years served in the military.
    <bullet> That veterans have access to the unused portion of their 
$1,200.00 enrollment fee after the authorized delimiting period to 
pursue educational endeavors.
Integrate MGIB Authority for Active, Guard, and Reserve
    NCOA strongly recommends that the Montgomery GI Bill be 
consolidated into a single Law to provide those educational benefits 
deemed appropriate for members of the Active, Guard, and Reserve 
personnel.
    Having all educational entitlements in such a format would cause 
review of entitlements, expanded benefits, benchmark benefits to cost 
of education, parity between components, and reviews to be done 
concurrently vice separate actions over an extended period of time.
    Recommendation:
    <bullet> Consolidate all MGIB Programs within one Law.
                               conclusion
    The Non-Commissioned Officers Association has appreciated this 
opportunity to provide this Committee with the Association's 2006 
Veteran Legislative Goals and comment on the VA fiscal year 2007 Budget 
Request.
    Your work is in fact the driving force to improving the lives of 
the men and women who serve or have served their country in the armed 
services. Your efforts signal that those who answer the call to protect 
all American citizens by serving in the armed services is appreciated 
and valued. Our Nation must reward freedom's protectors with 
significant, substantive benefits. Your Committee in our judgment wears 
the mantel that fulfills the promises of Lincoln and a grateful Nation 
to care for those who have borne the battle . . .''
    Chairman Craig, Ranking Minority Leader Akaka, and Members of the 
Senate Veterans Committee, the Non-Commissioned Officers Association 
requests that you maintain a comprehensive vision for veterans that by 
necessity extend to programs that do not fall under your Committee's 
jurisdiction but clearly impacts veterans and their survivors. As 
advocates for veterans' issues, NCOA asks that you take an aggressive 
leadership role on such issues as:
Concurrent Disabled Retired Pay
    Authorize concurrent receipt of all military retired pay and VA 
disability compensation without offset.
    Authorize concurrent receipt for those veterans retired because of 
physical disabilities prior to the completion of 20 years of military 
service and those offered early retirement at 15 years of service as a 
force reduction program.
Combat Related Special Compensation
    Include Individual Unemployability in rating decisions for CRSC.
S. 852--Fairness in Asbestos Injury Resolution Act
    As citizens and colleagues urge support of legislation in the 
Senate (establishment of the Asbestos Trust Fund) to provide immediate 
settlement for countless Americans including significant numbers of 
military and DoD personnel exposed to asbestos and whose lives today or 
in the future are terminal from medical conditions such as 
mesothelioma, pneumoconiosis, pulmonary fibrosis, lung disease, 
bronchogenic carcinoma, malignant mesothelioma. Naval personnel 
historically have been associated with asbestos exposure resulting from 
use in the construction of naval vessels for fire protection but in 
recent years the Nation's military have been exposed to asbestos not 
only on ships, but buildings including the Pentagon and barracks in 
Iraq.
Codifying Burial Rules for Arlington National Cemetery
    NCOA strongly believes that the existing rules for internment at 
Arlington National Cemetery should be changed to allow burial of 
retirement eligible reservists, without regard to an age limitation, 
reservists on active or inactive duty for training, and their eligible 
dependents family members should all be entitled to burial at ANC. It 
is reprehensible to bar any reservist the right to be buried based on 
an arbitrary age requirement or deny when the death results during an 
authorized active or inactive training period. Members of the Reserve 
Components need to be fully recognized as a vital element of the Armed 
Forces and their training periods prepares them for war and other 
hostilities where they are placed in harm's way. Recommend the 
following provisions be so codified:
    <bullet> The burial entitlement of a retirement eligible member of 
a Reserve Component who at the time of death was under 60 years of age 
and who, but for age would have been eligible at the time of death for 
retired pay under 1223 of Title 10 may be buried at ANC on the same 
basis as the remains of members of the Armed Forces entitled to retired 
pay under that chapter. The remains of the dependents of a member whose 
remains are eligible for burial at ANC on the same basis as dependents 
of members of the Armed Forces entitled to retired pay under such 
chapter 1223.
    <bullet> The remains of member of a Reserve component or National 
Guard of the Armed Forces who dies in the line of duty while on active 
duty for training or inactive duty training my be buried at ANC on the 
same basis as the remains of a member of the Armed Forces who dies 
while on active duty. Provide for the remains of the dependents of a 
member on the same basis as dependents of members of active duty.
100 Percent Disabled Veteran Space Available Travel
    Seek and support legislation that will establish a Space Available 
(Space A) category for 100 percent service connected disabled veterans 
on military aircraft or government transportation afforded military 
retirees
    Thank you for the opportunity to present the Association's 
legislative initiatives on behalf of the membership of the Non-
Commissioned Officers Association of the United States of America.

    Chairman Craig. Richard, your message has been delivered, 
very clearly.
    Mr. Schneider. Thank you, sir.
    Chairman Craig. Thank you so much. Now--and if you will all 
notice, probably the good news is I am losing my voice, so you 
won't have to put up with me much longer today--now let me turn 
to James Randles, National Commander, Military Order of the 
Purple Heart. Jim, welcome.

STATEMENT OF JAMES RANDLES, NATIONAL COMMANDER, MILITARY ORDER 
            OF THE PURPLE HEART OF THE U.S.A., INC.

    Mr. Randles. Chairman Craig, Ranking Member Senator Akaka, 
Members of the Committee, ladies and gentlemen, I always love 
following an NCOA speaker because they have this eloquence with 
their language, and they always get their point across because 
somehow they never need a microphone.
    [Laughter.]
    I am proud to be here today in front of this distinguished 
body on behalf of the members of the Military Order of the 
Purple Heart. I am accompanied today by our National Service 
Director, Jack Leonard, and our National Legislative Director, 
Herschel Gober.
    I would like to begin by thanking Congress for doing the 
right thing by increasing the death gratuity and other benefits 
for the servicemen and women who are serving our country in 
uniform. This was one of our legislative goals from last year. 
We cannot ask our military personnel to put themselves in 
harm's way without committing to the welfare of their 
survivors.
    My next point is about adequate funding for the VA. I think 
everybody has expressed their feelings and how their 
organization feels, but we strongly support the independent 
budget, and we have for years, that is presented to Congress 
every year by the PVA and DAV and the VFW and the----
    Mr. Schneider. AMVETS.
    Mr. Randles [continuing]. AMVETS. Thank you. I had one of 
those senior moments, Dick.
    But I can best describe our support by repeating what I 
told a group in February when I was up here, the Democratic 
Senators that had us over, that when somebody in Congress has 
asked me what I think the appropriate level for adequate 
funding would be, I have to quote what my wife tells me every 
year when I ask her what she wants for Christmas, and she says, 
``I want it all.''
    So that is the way I feel, how we should take care of--
because we are not just talking about the ones that are ``We 
have been there, done that.'' We are talking about the ones 
that are there now. And if the money is not there, what are we 
going to do with them? You know, we send them over there, and 
we have got to take care of them when they come back. You know, 
serving in the military, and not just serving in war, you are 
going to have casualties and you are going to have 
disabilities, so we have to take care of the troops.
    One of the points, and we of the Purple Heart support, and 
we have fought this and we have discussed this several years in 
our national convention, is Senate Bill 2157, which is the 
award of the Purple Heart medal to those POWs who died in 
captivity. We strongly support that issue, and we think because 
of their suffering and so forth that they received while they 
were interned and their subsequent death, because of that that 
they deserve to receive the Purple Heart medal.
    We also strongly support Senate Bill 558, which is of 
course the proverbial concurrent receipt, and we have been 
beating that one to death forever. I don't think I need to go 
into a long explanation.
    We also would like to ask that the Senate along with the 
House, and the House has a bill, House Resolution 995, which 
provides for the payment of combat-related service compensation 
to the members of the Armed Forces who were retired prior to 20 
years because of the disability they received while they were 
in the service.
    Dick talked about SBP and DIC offset. I am an example. I am 
one of those guys at the table that falls into that category. I 
retired in 1987. I took out the SBP at that time because I 
wanted, if something happened to me, I wanted my wife to have 
part of my retired pay. Personally, I think she deserves all of 
it because she was just about as in the military as I was.
    Well, we started looking at it, and SBP/DIC. Well, I have 
got, I am 90 percent disabled from the VA. I have been 
diagnosed with, perhaps I am coming down with diabetes now, as 
a result of Agent Orange. So the chances of me dying from a 
service-related disability are pretty good. Well, when you take 
that money that I put in, and like Dick said, if I die from 
that, she gets the choice, DIC or SBP, whichever is the 
greater.
    Well, I compound that with, she is a retired school teacher 
in the State of Georgia, 32 years. She receives the State of 
Georgia retired pay. They have a law in the State of Georgia 
which I am dealing with in the State Legislature, that since 
she is a retired school teacher, she cannot receive any of my 
Social Security. So her only answer to me, her only response to 
me after she heard all of this is, ``You can't die.''
    [Laughter.]
    I can't die until you change the law. So, you know, kind of 
hurry, if you don't mind----
    [Laughter.]
    Mr. Randles [continuing]. Because I don't know. Getting on 
the streets of Washington, you have got to watch where you walk 
even when the light says go.
    One of the issues that really gets to us is Senate Bill 
1998. This is the Stolen Valor Act. I heard somebody tell me 1 
day of statistics about the Vietnam veterans, that of the 1.6 
million Vietnam veterans that served in Vietnam, 12 million of 
them are left.
    [Laughter.]
    Now, I don't know how we did that, but we suddenly 
multiplied. The Stolen Valor Act looks directly at those wanna-
bes--I can't call them anything but that--that want to be 
recognized as wearing the Purple Heart medal, or the Silver 
Star, or the Medal of Honor, or whatever.
    I want to take them to--well, for the lack of an NCO term, 
I want to take them to the mat. I want to put their rear ends 
in jail because I don't think it is right. I don't think it 
serves credibility for those of us who did serve and are 
sitting in this room today, for some guy to go running around 
out there saying he has got this, that, and the other thing, 
and getting awards for it.
    Let me give you an example. In Georgia, if you have a 
Purple Heart, you get one free license plate for that car, for 
a car in your house. You don't pay any taxes or anything. That 
car is free. Well, if you say you have the Purple Heart, and 
you can get the Purple Heart thing off the Internet, and show 
it to the DMV, they have no idea whether you received the 
Purple Heart or not. That constitutes fraud in my eyes, so I 
want to put that little sucker in jail. I am upset about that.
    Federal supply thing, I support what Dick said. You know, I 
don't mind giving lower drugs, but I will be darned if I want 
the veterans have to be the recipient of everybody else getting 
lower cost of drugs. Find another way. You have just got to do 
that.
    Asbestos Trust Fund, we strongly support that you pass that 
Asbestos Trust Fund. That is kind of like the wanna-bes. You 
know, you have got the guy who says, ``Well, I was exposed to 
asbestos,'' but he has no symptoms of any of the illnesses, and 
the courts are clogged with those. That is the reason why it is 
taking so long, and we need to take care of those people that 
actually have disabilities because of their exposure to 
asbestos, not because they think they have.
    Thank you very much.
    [The prepared statement of Mr. Randles follows:]
       Prepared Statement of James Randles, National Commander, 
         Military Order of the Purple Heart of the U.S.A., Inc.
    Chairman Craig, Ranking Member Senator Akaka, Members of the 
committee, ladies and gentlemen:
    I am James D. Randles, National Commander of the Military Order of 
the Purple Heart (MOPH). It is an honor to appear before this 
distinguished body on behalf of the members of MOPH. MOPH is unique 
among veteran service organizations because our entire membership is 
comprised entirely of combat-wounded veterans who shed their blood on 
the battlefields of the world while serving America in uniform. For 
their sacrifices they were awarded the Purple Heart Medal.
    National Service Director Jack Leonard and National Legislative 
Director Hershel Gober accompany me today.
    This committee is extremely important to MOPH and its members. We 
look to you to represent the veterans of our country and to ensure that 
all Members of Congress understand that America must keep its promises 
to those men and women who have served and are now serving in uniform 
if we are to maintain a viable military and continue to enjoy the 
freedoms that we have. Veterans have earned their entitlements and 
benefits.
    I would like to begin by thanking Congress for doing the right 
thing by increasing the death gratuity and other benefits for the 
service men and women who are serving our country in uniform. This was 
one of our legislative goals last year. We cannot ask military 
personnel to put themselves in harm's way without committing to the 
welfare of their survivors.
           adequate funding for the va health administration
    The Military Order of the Purple Heart (MOPH) is on record as 
supporting the Independent Budget, which is developed and submitted to 
Congress by the Veterans of Foreign Wars (VFW), Disabled American 
Veterans (DAV), Paralyzed Veterans of America (PVA) and American 
Veterans (AMVETS).
    I am the third MOPH National Commander in a row to present as our 
number one priority Adequate/Assured funding for the VA Health 
Administration. MOPH joins our fellow VSOs in urging Congress to find a 
long-term solution to the annual funding crisis at the VA. The VA 
deserves a system that delivers funds on time to allow for long-term 
planning. With the ongoing War on Terror and our servicemembers 
returning home from war with medical conditions requiring treatment at 
VA hospitals, the VA needs the capability to meet their needs. The 
funding problem was demonstrated last year when the need to provide 
$1.5 billion in emergency supplemental appropriations for fiscal year 
2005 surfaced, and the need to amend the fiscal year 2006 budget with 
an additional $1.977 billion. MOPH supports Senate Bill 331.
     the award of the purple heart medal to those pows who died in 
                               capitivity
    The MOPH believes that those military personnel who suffered 
hardships and wounds or illnesses while held in POW camps and died as a 
result of their interment should be considered as combat casualties and 
eligible for the award of the Purple Heart Medal. MOPH supports 
legislation that has been introduced in both houses of Congress (H.R. 
2369 and S. 2157) that would authorize the award.
                        retired pay restoration
    MOPH is pleased that Congress has enacted legislation that 
authorizes some military retirees to concurrently receive both full 
military retired pay and any VA compensation to which they are 
entitled. MOPH's position is that ALL those eligible for concurrent 
receipt should receive it. MOPH supports Senate Bill 558.
                    combat military retired veterans
    MOPH supports legislation to provide for the payment of Combat-
Related Special Compensation to members of the Armed Forces retired for 
disability with less than 20 years of active military service. MOPH 
supports H.R. 995.
 survivor benefit plan (sbp) and dependency and indemnity compensation 
                                 (dic)
    MOPH supports legislation that will repeal the requirement for the 
reduction of SBP annuities by the amount of DIC compensation. Survivors 
of retirees who die of service connected causes and paid into SBP, and 
survivors of members killed on active duty, should receive both SBP and 
DIC without the current dollar for dollar offset. MOPH support Senate 
Bill 185.
                        stolen valor act of 2005
    MOPH supports S. 1998. It is unfortunate, especially with our 
country engaged in ongoing conflicts, that there are citizens in this 
country who lie about the medals that they received while serving in 
the military. This is not just an occurrence now and then but 
regrettably it is a huge problem. This legislation would provide for 
fines and imprisonment for those wannabees that dishonor the medals for 
valor and the Purple Heart Medal and those brave men and women who have 
legitimately received these medals. MOPH urges passage of this 
legislation.
              protecting the federal supply schdule (fss)
    The VA purchases approximately 24,000 pharmaceutical products at 
discounts ranging from 24 to 60 percent below drug manufacturers' most 
favored non-Federal, non-retail customer pricing through the FSS. 
Efforts have been made to open the FSS to other entities which would/
could have the effect of the VA losing the favorable pricing and cost 
the VA hundreds of millions of dollars in unbudgeted funds, funds which 
they do not have and would have to divert from medical services that 
could deny veterans treatment. MOPH supports lower priced 
pharmaceuticals for all Americans but not at the expense of veterans.
                          asbestos trust fund
    Many of our Nation's veterans were exposed to asbestos during their 
military service up until the mid-seventies when its use was 
discontinued. There is data that indicates the 26 percent of all 
mesothelioma cases, the most deadly form of this disease, are veterans. 
Further 16 percent of all other lung cases and 13 percent of all 
disabling lung disease cases again are veterans. Veterans cannot sue 
their employer, the U.S. Government and getting their day in court is 
difficult because most of the corporate manufacturers are bankrupt or 
no longer exist. MOPH supports Senate Bill 852 which would create a 
trust fund that would give just compensation to veterans. The current 
court system is not working for veterans.
    Mr. Chairman this concludes my testimony. I will be pleased to 
answer your questions.

    Chairman Craig. James, thank you very much for your 
testimony. We are going to work hard to keep you alive.
    Mr. Randles. Thank you, sir.
    Chairman Craig. Again, let me thank all of you for your 
testimony this morning. The reason in my opening statement I 
challenged you all is not because this Committee and the 
Members of the Committee are not going to work overtime to 
deliver this budget and beyond. We are.
    But the reason this year I couldn't walk away from a 
revenue enhancement proposal is because I do believe it is time 
once again that this community of interest and others begin to 
look at that freight train coming down the track at us. And I 
say that because, while this Congress has demonstrated its 
willingness, and I think they have, to fund VA--year after year 
they have outperformed Presidents and outperformed proposals in 
almost all instances by some amount.
    Why? Because of our commitment to veterans. I hope that is 
not questioned. It may not have been at the level or it may not 
have been where you wanted it, but it was almost always greater 
than, for a variety of reasons. And the reason I say that is 
because there are some tremendously looming statistics on the 
horizon. For many here in this room they won't pertain, but for 
many of you they will.
    And that is a simple and obvious fact that both 
conservative and liberal economists agree on, that if two norms 
continue, and that is, a growing economy and a tax base for the 
Federal Government that reflects about 14 percent of GDP, for 
those who say, ``Well, we are not taxing enough,'' we are 
taxing right now at a historic norm, that is between 14 and 16 
percent GDP, and that is on an average that has spread across 
time for a long while.
    You find that if you tax too much above it, you begin to 
impact the economy and growth and all of those things, and job 
creation, so that has been a norm that, while we don't talk 
about it a lot, we try to sustain. So if we sustain that norm 
out there for another 20 years or 30 years, and of course we 
assume the economy is going to grow, there is going to be new 
jobs, therefore there will be new revenue. Right now we are 
taking in more revenue, right now, than when the tax cuts, the 
Bush tax cuts came along that I supported some years ago.
    But having said all of that, by the year 2030 Social 
Security and Medicare and Medicaid will consume all of the 
Federal budget, all of it. Doesn't include you. Doesn't include 
Defense. Doesn't include Agriculture and Interior and Commerce 
and all of the other agencies of government, and Education. And 
there are few in this city who disagree with that statement. 
Now, that is 2030. That is a ways out there, but it isn't far.
    And so no matter what we do this year, we are going to come 
in at or above what the President has proposed, would be my 
guess.
    And I will support that and work to get it. But I am going 
to progressively challenge all of you to look beyond where your 
headlights are now shining. Why? In large part not for you, but 
for those young men and women coming out of Iraq and 
Afghanistan, and the future. Sustainability is what we are 
talking about here, and that is tremendously important, I 
think.
    Thank you all for your testimony. Let me turn to Senator 
Richard Burr for any comments he has, or questions. Richard, 
thank you for joining us.

        STATEMENT OF HON. RICHARD M. BURR, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Senator Burr. Thank you. Thank you, Mr. Chairman. More 
importantly, thank you for your leadership. And thank you to 
those on the panel today for your service, and more 
importantly, for your passion, and to those in the audience for 
your service and your willingness to be here in support of 
those individuals who testified.
    Mr. Chairman, I can't not take the lead that you have 
headed on, and that is the realities of what we deal with up 
here. Let me say if all five of you had not come and suggested 
that more was needed, then I would question why your 
associations chose you to be their spokesperson. I have yet to 
have anybody come to Washington, in the 12 years that I have 
been here, and suggest that we provide enough funding. But I 
have always expected that when I hear from you, I will see and 
hear the examples that back up the need for additional monies.
    I think it is safe to say that, as Chairman Craig has 
already stated, every Member of this Committee is interested in 
getting it right. We will never provide everything, but the 
directional change that we have had in the last several years 
is a positive one, one where I think Members are engaged in 
education and, more importantly, the opportunity for you to 
share with us those stories has been available.
    I think without the leadership of the Chairman and the 
Ranking Member, quite frankly we would not be here. We continue 
to work to try to make sure the items that each of you covered, 
which was sufficient funding, an efficient VA, one that did 
supply the services that were needed, that we work in concert 
with the Secretary and others at VA to make sure that in fact 
we are trying to complete the package as best we can.
    We need your help. The Chairman did a good job of 
explaining what we see down the road as the fiscal challenges 
of this country, and we have an obligation that spreads far 
outside of the table you are at and the groups that are here, 
and it does extend from this generation to the next.
    We need the same passion you display on your issues to be 
displayed on the fiscal crisis that the country is headed on. 
Just like 5 years ago there may not have been on your list 
asbestos as it related to your membership, today it is real, we 
know it is, and you are passionate and you are vocal on it, so 
should your interest in us reforming Medicare and Medicaid, so 
should your interest in us finding something that is 
sustainable for Social Security, because without it we are all 
affected.
    So I implore all of you today, help us with this challenge 
that we have got. It is not Republican or Democrat, it is 
American, and it will dictate our flexibility in the future.
    Mr. Schneider, if I could end on one thing, the next time 
you go to meet with the Secretary of HHS, would you come here 
first and let us give you questions for him, versus----
    Mr. Schneider. Let me tell you, I will be over here and I 
will be looking for you when I go to see him again.
    Senator Burr. I will assure you I will start on my list 
today.
    Mr. Schneider. Start it now.
    Senator Burr. The one thing that it terrifies me to hear is 
the territorial boundaries that seem to be established within 
the Federal Government. We represent the Congress, but I think 
that we stand beside the Administration regardless of what 
party they are in because the two have to work together.
    And what is an issue that may affect you and may be the 
direct result of this Committee, I would hate for a Secretary 
to say, ``I have no obligation, no responsibility. Go see the 
people that matters.'' The welfare of the American people 
should be the interest of Congress and the Administration, 
regardless of who they are, and I will assure you this 
Committee will always work to try to make sure that that level 
of cooperation exists for you and for everybody.
    Once again, I thank you five for your testimony.
    Chairman Craig. Richard, thank you very much. That was well 
spoken.
    Let me close on this note: It is always amazing what you 
find when you dig through the files. I am looking at a 
Committee report from 1996 for the 1997 VA budget, and this is 
a dialogue that I am having with then the Secretary of VA, 
Jesse Brown. Many of you remember Jesse very well.
    Jesse and the Clinton Administration had proposed a VA 
budget not unlike this one, in the sense there was growth in it 
but in the out-years there appeared to be a dramatic decline. 
And of course history would suggest that never happened, but 
what I found interesting is this, and I think the Secretary was 
being tremendously honest when I asked him that question: ``How 
do we sustain this budget? And in the out-years it turns flat 
and it steeply declines. What is the Administration going to do 
about it?''
    Here is his response: ``The numbers that you have reflected 
in that chart``--he is talking about a chart I was using at 
that time--``do not have any policy behind them at this 
point.'' He has basically said that each and every year 
veterans will have a chance to come in and sit down and 
negotiate a budget.
    And I thought that is a pretty clear statement, when you 
look back now at where we were then and where we are today, 
because that is exactly what has happened. Veterans' 
organizations like yours, advocates that you are, as well as 
you do it, obviously changed all of that. That was then, and 
that was 1996, and this is now, and we will work through it.
    What I am going to ask of you in the coming year, as we get 
beyond the budget and get the numbers in place, is to dialogue 
with me and other Members about the future, not the 2008 
budget, not the 2009 budget, but 2010 and beyond. We will ask 
this Administration to squeeze the numbers hard, and they are 
squeezing them now because they recognize the challenge. 
Secretary Nicholson was as frustrated last year as this 
Committee was angry about the numbers that he brought, that 
fell out from under him very rapidly.
    As a result of that, this Committee has asked him to report 
back to us every quarter, and he is now doing that. We are 
tracking dollars and cents and people and services and programs 
on a quarterly basis, as is he.
    That will give us a much more accurate reality check as we 
move into budget cycles than the kind that we fell into last 
year. That simply was no way to run an organization, and you 
all know it. You have seen it, and some of you have spoken to 
it today. What I am proposing to you is that at least as long 
as I have my hands on the tiller, folks at VA are going to 
hustle, and we are going to do everything we can to make sure 
that the dollars we get are spent wisely and appropriately for 
America's veterans.
    So thank you all very much for being here today.
    [Whereupon, at 11:14 a.m., the Committee was adjourned.]







                            A P P E N D I X

                              ----------                              

       Prepared Statement of Theodore G. Stroup, Vice President, 
                 Association of the United States Army
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to present the 2006 legislative 
agenda of the Association of the United States Army (AUSA) as it deals 
with veteran's issues. Both in personal testimony and through 
submissions for the record, there exists a long-standing relationship 
between AUSA and the Senate Committee on Veterans' Affairs. We are 
honored that we have been asked to express our views on behalf of our 
members and America's veterans.
    The Association of the United States Army is a diverse organization 
of over 100,000 members--active duty, Army Reserve, Army National 
Guard, Department of the Army civilians, retirees and family members. 
An overwhelming number of our members are entitled to veterans' 
benefits of some type. Additionally, AUSA is unique in that it can 
claim to be the only organization whose membership reflects every facet 
of the Army family. Each October, at our Annual Meeting, our membership 
has the opportunity to express its views through the consideration and 
approval of resolutions for the following year. These resolutions 
provide the base upon which the Association's leadership builds its 
legislative agenda.
    Each year, the AUSA statement before the committee seeks to stress 
that America's veterans are not ungrateful. Much of the good done for 
veterans in the past would have been impossible without the commitment 
of many who serve on this committee and the tireless efforts of their 
professional and personal staffs.
    The inherently difficult nature of military service has never been 
more self-evident than during the current conflict. While grateful for 
the good things done for veterans, AUSA reminds our elected 
representatives that we consider veterans benefits to have been duly 
earned by those who have answered the Nation's call and placed 
themselves at risk.
    AUSA is heartened that Congress has expressed a commitment to 
support America's veterans. Despite this, many are concerned that the 
declining number of veterans in Congress might in some way lessen the 
value this institution places on veterans and their service to the 
Nation. We, at AUSA, do not share this opinion. AUSA is confident that 
you--well-intentioned, patriotic men and women--will faithfully 
represent the interests of America's veterans during fiscal 
deliberations.
    As elected representatives, you must be responsible stewards of the 
Federal purse because each dollar emanates from the American taxpayer. 
AUSA emphasizes that the Federal Government must remain true to the 
promises made to her veterans. We understand that veterans' programs 
are not above review, but always remember that the Nation must be there 
for the country's veterans who answered the Nation's call.
    Veterans seldom vote in a block, despite their numbers. This is one 
reason AUSA seeks this forum to speak for its members about veterans' 
issues. Our veterans have lived up to their part of the bargain; the 
Congress must live up to the government's part.
    Those who have volunteered to serve their country in uniform 
deserve educational benefits that support their transition to civilian 
life. It is imperative that the Montgomery GI Bill (MGIB) remain 
relevant--that its benefit levels parallel the rising cost of 
education.
    Currently, educational benefits under the MGIB do not reflect 
policy nor match benefits to service commitment. Basic benefits for 
active duty troops authorized under Chapter 30 of Title 38 have not 
kept pace with the rising costs of education and training.
    AUSA strongly supports the goal to index the monthly MGIB stipend 
to the average annual cost of a 4-year public college or university. 
The proposal would benchmark the total benefit to about $37,000 and it 
would be adjusted automatically each year based on a government index 
of college costs. Since the MGIB for some time has been one of the 
Services' best recruiting incentives, it is imperative that its buying 
power remain comparable to education costs.
    AUSA strongly encourages Congress to raise education benefits for 
National Guard and Reserve servicemembers under Chapter 1606 of Title 
10. For years, these benefits have only been adjusted for inflation. 
Currently, Reserve GI Bill benefits have fallen to less than 29 percent 
of the active duty benchmark. Additionally, Reserve benefits have no-
post service value as a veteran benefit, even though almost half of the 
Select Reserve has served on lengthy combat tours since September 11. 
Further, a transfer of the Reserve MGIB-Select Reserve authority from 
Title 10 to Title 38 will permit proportional benefit adjustments in 
the future.
    AUSA applauds Congress' effort to address the gap by authorizing a 
new MGIB program (Chapter 1607, Title 10 USC) for Guard and Reserve 
members mobilized for more than 90 days in a contingency operation. 
However, more than a year after the law was changed, the program has 
still not been implemented.
    AUSA also believes it's time to revisit the need to dock volunteer 
force recruits $1200 of their first year's pay for the privilege of 
serving their country on active duty. Government college loan programs 
have no upfront payments; thus, it is difficult to accept any rationale 
for our Nation's defenders to give up a substantial portion of their 
first year's pay for MGIB eligibility.
    Further, AUSA urges the committee to authorize greater flexibility 
in MGIB usage by amending Title 38 to permit use of MGIB benefits for 
up to 20 years post-separation or retirement in order to keep pace with 
market demands and to encourage veterans to acquire lifetime skills and 
knowledge during their working years.
    AUSA strongly encourages Congress to allow all participants of 
MGIB's predecessor, the Veteran's Education Assistance Program (VEAP), 
as well as those servicemembers who were on active duty but did not 
enroll in VEAP, to receive MGIB educational benefits. There are about 
63,000 non-commissioned officers and officers bravely serving their 
country in the war against terrorism at home and abroad in this 
situation. However, when they exit the service, they will have no 
education benefits to help them achieve their post-service goals like 
all other veterans. These servicemembers should be given the 
opportunity to take the MGIB or decline it.
    AUSA continues to support giving MGIB participants who serve a full 
military career the option of transferring their benefits to dependents 
as a career retention initiative.
    Members of the National Guard called to active duty under Title 32 
in support of the current crisis do not receive veteran's status for 
their active duty military time. Those called to active duty under 
Title 10 do receive veteran's status. This inequity must be addressed. 
Your support in allowing Guardmembers to earn veterans' status on equal 
footing with their active duty and Reserve counterparts will send the 
message that National Guard personnel are part of the Total Force.
    Veterans' medical facilities must remain expert in the specialties 
which most benefit our veterans. These specialties relate directly to 
the ravages of war and are without peer in the civilian community. 
Demand for VA health care still outpaces the capacity to deliver care 
in a timely manner. AUSA believes that full funding should occur 
through modifications to the current budget and appropriations process, 
by using a mandatory funding mechanism or by some other changes in the 
process that achieve the desired goal.
    AUSA supports legislation that establishes a presumption of service 
connection for veterans with Hepatitis C (HCV).
    AUSA applauds the unprecedented and historic legislation which 
authorized the unconditional concurrent receipt of retired pay and 
veterans' disability compensation for retirees with disabilities of at 
least 50 percent and the legislation that removed disabled retirees who 
are rated as 100 percent from the 10-year phase-in period.
    However, we cannot forget about the thousands of disabled retirees 
left out by this legislative compromise. The principle behind 
eliminating the disability offset for those with disabilities over 50 
percent is just as valid for those 49 percent and below. AUSA urges 
that the thousands of disabled veterans left out of recent legislation 
be given equal treatment and that the disability offset be eliminated 
completely.
    Two other critical areas need to be addressed. For chapter 61 
(disability) retirees who have more than 20 years of service, the 
government recognizes that part of that retired pay is earned by 
service, and part of it is extra compensation for the service-incurred 
disability. The added amount for disability is still subject to offset 
by any VA disability compensation, but the service-earned portion (at 
2.5 percent of pay times years of service) is protected against such 
offset.
    AUSA believes that a member who is forced to retire short of 20 
years of service because of a combat disability must be vested in the 
service-earned share of retired pay at the same 2.5 percent per year of 
service rate as members with 20+ years of service. This would avoid the 
all or nothing inequity of the current 20-year threshold, while 
recognizing that retired pay for those with few years of service is 
almost all for disability rather than for service and therefore still 
subject to the VA offset.
    Recent legislation restored full retired pay for members designated 
as unemployables in 6 years rather than 10 years as originally 
legislated. While AUSA is appreciative of the accelerated schedule, we 
would like to see the disability offset to retired pay end immediately.
    Legislation provided in previous defense bills authorized Combat 
Related Special Compensation (CRSC) for certain retirees with combat- 
or operations-related disabilities. Unfortunately, CRSC has been slow 
in implementation because of the requirement to connect retirees' 
disabilities directly to combat, a combat-related event or combat-type 
training. This validation requires retrieval of VA medical records, an 
excruciatingly slow process. Many qualifying retirees are still waiting 
for compensation authorized to them. AUSA urges the Committees to 
authorize proper funding to ensure timely processing of any expected 
increase in disabled veterans' claims for this or other reasons.
    The rules for interment in Arlington National Cemetery (ANC) have 
never been codified in public law. Twice the House has passed 
legislation to codify rules for burial in Arlington National Cemetery. 
However, the legislation has not passed in the Senate. AUSA supports a 
negotiated settlement of differences between the House and Senate 
concerning codification of rules for burial in Arlington National 
Cemetery. Further gray area reservists eligible for military retirement 
should be included among those eligible for interment at Arlington 
National Cemetery.
    AUSA is opposed to the Administration's request to impose an annual 
deductible on veterans already enrolled in VA health care and the 
proposed increase in the co-payment charged to many veterans for 
prescription drugs.
    AUSA supports continuing congressional efforts to help homeless 
veterans find housing and other necessities, which would allow them to 
re-enter the workforce and become productive citizens.
    Terminally ill veterans who hold National Service Life Insurance 
and U.S. Government Life Insurance should, upon application, be able to 
receive benefits before death, as can holders of Servicemembers Group 
Life Insurance and Veterans Group Life Insurance. AUSA supports 
legislation to amend the U.S. Code appropriately.
    Much more needs to be done to ensure that returning combat 
veterans, as well as all other service men and women who complete their 
term of service or retire from service receive timely access to VA 
benefits and services. This issue encompasses developing and deploying 
an interoperable, bi-directional and standards-based electronic medical 
record; a one-stop separation physical supported by an electronic 
separation document (DD-214); benefits determination before discharge; 
sharing of information on occupational exposures from military 
operations and related initiatives. AUSA strongly recommends 
accelerated efforts to realize the goal of seamless transition plans 

and programs.
    We encourage the positive steps toward mutual cooperation taken 
recently by the Department of Defense (DOD) and the VA. The closer we 
can come to a seamless flow of a servicemember's personnel and health 
files from service entry to burial, the more likely it will be that 
former servicemembers receive all the benefits to which they are 
entitled. AUSA supports closer DOD-VA collaboration and planning 
including billing, accounting, IT systems, patient records, but not 
total integration of facilities nor of VA/DOD healthcare systems.
    AUSA strongly supports preservation of dual eligibility of 
uniformed service retirees for VA and DOD healthcare systems. We 
applaud Congress' opposition to ``forced choice'' in the past and 
encourage you to hold the line in for the future.
    AUSA recognizes that significant progress has been made in reducing 
the unacceptably high numbers of backlogged disability claims. The key 
to sustained improvement in claims processing rests on adequate funding 
to attract and retain a quality workforce supported by investment in 
information management and technology.
    Your committee safeguards the treatment of America's veterans on 
behalf of the Nation. AUSA knows that you take this responsibility 
seriously and treat this privilege with the gratitude and respect it 
deserves. Although your tenure is temporary, the impact of your actions 
lasts as long as this country survives and affects directly the lives 
of a precious American resource--her veterans. As you make your 
decisions, do not forget the commitment made to America's veterans when 
they accepted the challenges and answered the Nation's call to serve.
    Thank you for the opportunity to submit testimony on behalf of the 
members of the Association of the United States Army, their families, 
and today's soldiers who are tomorrow's veterans.
 

                                  <all>

</pre></body></html>
